Appendix A-1
United States Court of Appeals
for the District of Columbia Circuit
__________
Argued November 23, 2020 Decided March 19, 2021
No. 20-5074
GERALD H. HAWKINS, INDIVIDUALLY AND AS A TRUSTEE
OF THE CN HAWKINS TRUST AND GERALD H. HAWKINS
AND CAROL H. HAWKINS TRUST, ET AL.,
APPELLANTS
V.

DEBRA A. HAALAND, SECRETARY OF THE INTERIOR,
ET AL.,
APPELLEES
__________
Appeal from the United States District Court
for the District of Columbia
(No. 1:19-cv-01498)
__________
David J. Deerson argued the cause for appellants.
With him on the briefs were Damien M. Schiff and
Dominic M. Carollo.
John L. Smeltzer, Attorney, U.S. Department of
Justice, argued the cause for appellees. With him on
the brief were Jeffrey Bossert Clark, Assistant
Attorney General, Eric Grant, Deputy Assistant
Attorney General, and Erika Kranz and Daron T.
Carreiro, Attorneys.
Before: ROGERS, KATSAS and RAO, Circuit Judges.

Appendix A-2
Opinion for the Court by Circuit Judge ROGERS.
ROGERS, Circuit Judge: Ranchers in the Upper
Klamath Basin region of the State of Oregon who hold
irrigation water rights, sued to prevent the exercise of
water rights that interfere with the irrigation of their
lands. The district court dismissed their lawsuit for
lack of standing under Article III of the Constitution.
Viewing their standing to turn on whether the
Klamath Tribes can call upon state officials to
implement their superior instream water rights
without the consent of the federal government, the
ranchers challenge a Protocol Agreement executed by
the United States and the Tribes. They contend that
the federal government, as trustee of those water
rights, unlawfully delegated its call-making authority
to the Tribes and that absent such delegation, the
Tribes would be unable to secure state
implementation of their water rights. The ranchers
maintain that the economic, environmental, and
recreational injuries they suffered because of water
cut offs imposed to satisfy the Tribes’ superior water
rights are fairly traceable to the federal government’s
delegation of its authority and could be redressed by
invalidation of the Protocol, which would restore the
federal government’s call-making authority. We
conclude that the Protocol does not delegate federal
authority to the Tribes but recognizes the Tribes’
preexisting authority to control their water rights
under a Treaty in 1864 with the United States.
Accordingly, the ranchers have not established the
causation or redressability necessary for standing,
and the dismissal of their complaint is affirmed.

Appendix A-3
I.
The Klamath Tribes have hunted, fished, and
lived in the Klamath River watershed of Southern
Oregon for over a thousand years. See Oregon Dep’t of
Fish & Wildlife v. Klamath Indian Tribe, 473 U.S.
753, 766 (1985); United States v. Adair, 723 F.2d 1394,
1397–98 (9th Cir. 1983). In 1864, the Tribes entered
into a treaty with the United States in which they
ceded
most
of
their
aboriginal
territory,
approximately
22
million
acres,
excluding
approximately 1.9 million acres that the parties
agreed would be held for the Tribes “as an Indian
reservation.” Oregon Dep’t, 473 U.S. at 755 (internal
quotation marks omitted) (quoting Treaty Between
the United States of America and the Klamath and
Moadoc Tribes and Yahooskin Band of Snake Indians
(“1864 Treaty”) art. I, Oct. 14, 1864, 16 Stat. 707, 707–
08).1 The Tribes reserved “the exclusive right of taking
fish in the streams and lakes” on the reservation, 1864
Treaty art. I, 16 Stat. at 708, and of “gathering edible
roots, seeds, and berries within its limits,” id., and the
United States agreed to compensate the Tribes for the
ceded lands in the form of federal expenditures to
promote the Tribes’ well-being and “advance them in
civilization . . . especially agriculture,” id. art. II, 16
Stat. at 708.

1 The Klamath Tribes are federally recognized as a single tribal
entity, but that entity is composed of three historically distinct
groups: the Klamath tribe, the Modoc tribe, and the Yahooskin
band of Snake Indians. See 1864 Treaty preamble, 16 Stat. at
707. The court follows the practice of the parties to refer to “the
Tribes” while some older sources refer to the Klamath as a single
“tribe.”

Appendix A-4
After establishing the Klamath Reservation,
Congress enacted the General Allotment Act of 1887,
which authorized subdivision of the reservation and
allotment of parcels granted in fee to individual
members of the Tribes, as part of a policy, since
repudiated, “to extinguish tribal sovereignty, erase
reservation boundaries, and force the assimilation of
Indians into the society at large.” Upper Skagit Indian
Tribe v. Lundgren, 138 S. Ct. 1649, 1652–53 (2018)
(internal quotation marks omitted) (quoting Cnty. of
Yakima v. Confederated Tribes & Bands of the Yakima
Indian Nation, 502 U.S. 251, 254 (1992)). Since then
Congress has addressed the federal government’s
relationship to the Tribes in ways directly relevant
here. Nearly a century later, Congress ended the
federal government’s historical role as trustee while
reaffirming the Tribes’ reserved aboriginal water
rights. By 1986, Congress had restored certain of its
trustee services to the Tribes, but again expressly left
the Tribes’ aboriginal water rights in the Tribes’
exclusive control.2
The Klamath Termination Act of 1954 terminated
federal supervision of the Tribes and provided for
disposition of their reservation land that had not been
allotted. Pub. L. No. 83-587, § 1, 68 Stat. 718, 718. It
closed the tribal roll and provided that tribal members
2 Regarding the federal government’s trust relationship with
Indian tribes, see COHEN’S HANDBOOK OF FEDERAL INDIAN LAW
§§ 5.05(1)(b)–(2), 15.03, 19.06 (Nell Jessup Newton ed., 2017)
(hereinafter “COHEN’S HANDBOOK”); see also Reid Peyton
Chambers, Judicial Enforcement of the Federal Trust
Responsibility to Indians, 27 STAN. L. REV. 1213 (1975); Mary
Christina Wood, Indian Land and the Promise of Native
Sovereignty: The Trust Doctrine Revisited, 1994 UTAH L. REV.
1471.

Appendix A-5
could elect to withdraw from the Tribes and receive a
cash payout of the individual’s interest in tribal
property. Termination Act §§ 3–5, 68 Stat. at 718–19.
The Tribes’ property could be appraised and sold to
fund individual cash payments. Id. § 5, 68 Stat. at 719.
The property of the remaining members of the Tribes
would be managed by a private trustee or corporation.
Id. All restrictions on sale or encumbrance of land
owned by members of the Tribes would be removed
four years after the Act became effective. Id. § 8, 68
Stat. at 720. Specifically, the Termination Act
provided:
Upon removal of Federal restrictions on the
property of the tribe and individual members
thereof, the Secretary [of the Interior] shall
publish in the Federal Register a proclamation
declaring that the Federal trust relationship to
the affairs of the tribe and its members has
terminated. Thereafter individual members of the
tribe shall not be entitled to any of the services
performed by the United States for Indians
because of their status as Indians and, except as
otherwise provided in this Act, all statutes of the
United States which affect Indians because of
their status as Indians shall no longer be
applicable to the members of the tribe, and the
laws of the several States shall apply to the tribe
and its members in the same manner as they
apply to other citizens or persons within their
jurisdiction.
Id. § 18(a), 68 Stat. at 722. Regarding water and
fishing rights, the Termination Act provided:
(a) Nothing in this Act shall abrogate any water
rights of the tribe and its members, and the

Appendix A-6
laws of the State of Oregon with respect to the
abandonment of water rights by nonuse shall
not apply to the tribe and its members until
fifteen years after the [termination of the
federal trust relationship to the tribe].
(b) Nothing in this Act shall abrogate any fishing
rights or privileges of the tribe or the
members thereof enjoyed under Federal
treaty.
Id. § 14, 68 Stat. at 722.
About 78% of the Tribes’ members elected to
withdraw and receive a payout. Klamath & Modoc
Tribes v. United States, 436 F.2d 1008, 1012 (Ct. Cl.
1971). Reservation property not set aside to pay their
claims was transferred to a private trustee. Id. In
1961, the Secretary of the Interior published a notice
in the Federal Register that “the Federal trust
relationship to the affairs of the tribe and its members
is terminated.” Termination of the Federal Trust
Relationship to the Property of the Klamath Tribe of
Indians Located in the State of Oregon, and of Federal
Supervision Over the Affairs of the Individual
Members Thereof, 26 Fed. Reg. 7362, 7362 (Aug. 12,
1961).
In 1986, Congress unwound some of the effects of
the Termination Act. The Klamath Indian Tribe
Restoration Act of 1986 restored the Federal trust
relationship with the Tribes. It provided:
All rights and privileges of the tribe and the
members of the tribe under any Federal treaty,
Executive order, agreement, or statute, or any
other Federal authority, which may have been
diminished or lost under the [1954 Termination

Appendix A-7
Act] are restored, and the provisions of such Act,
to the extent that they are inconsistent with this
Act, shall be inapplicable to the tribe and to
members of the tribe after the date of the
enactment of this Act.
Pub. L. No. 99-398, § 2(b), 100 Stat. 849, 849. The
Tribes were restored to the status of a federally
recognized tribe. Id. § 2(a), 100 Stat. at 849. The Act
specified that it did not “alter any property right or
obligation,” and thus did not restore previously
alienated lands to the Tribes’ land base. See id. §§ 2(d),
6, 100 Stat. at 850. It also expressly provided that the
Act would not “affect in any manner any hunting,
fishing, trapping, gathering, or water right of the tribe
and its members.” Id. § 5, 100 Stat. at 850. The United
States presently recognizes the Tribes as a tribal
sovereign, 25 U.S.C. §§ 3601(3), 5123(h), with
inherent powers of self-government, including powers
over land and water rights except as reserved by
Congress. See Kahawaiolaa v. Norton, 386 F.3d 1271,
1273 (9th Cir. 2004); Burlington N. R.R. Co. v.
Blackfeet Tribe of the Blackfeet Indian Rsrv., 924 F.2d
899, 902 (9th Cir. 1991), overruled on other grounds by
Big Horn Cnty. Elec. Co-op., Inc. v. Adams, 219 F.3d
944, 953 (9th Cir. 2000); see also Michigan v. Bay Mills
Indian Cmty., 572 U.S. 782, 788 (2014); Oregon Dep’t,
473 U.S. at 765–66; United States v. Shoshone Tribe
of Indians of Wind River Rsrv., 304 U.S. 111, 116–17
(1938); Indian Entities Recognized by and Eligible to
Receive Services from the United States Bureau of
Indian Affairs, 84 Fed. Reg. 1200, 1202 (Feb. 1, 2019).
A.
Prior to passage of the Restoration Act, the
determination of competing claims to water in the

Appendix A-8
Klamath Basin was underway in the federal courts
and under Oregon law. The Tribes’ reserved water
rights arise as an exception to the doctrine of prior
appropriation governing rights to use water from river
systems in Oregon and other western states, based on
acknowledgement that the establishment of an Indian
reservation and other federal reservations impliedly
reserves then-unappropriated water “to the extent
needed to accomplish the purpose of the reservation.”
Cappaert v. United States, 426 U.S. 128, 138 (1976).
In 1975, the United States sued in federal court
for a declaration of water rights in the Williamson
River drainage in the Klamath Basin. Adair, 723 F.2d
at 1398. The Tribes intervened as a plaintiff. Id. at
1399. The State of Oregon intervened as defendant
and moved unsuccessfully for the federal court to
abstain to state proceedings. Id. The Court of Appeals
for the Ninth Circuit concluded that the Tribes held a
right to “a quantity of the water flowing through the
reservation . . . for the purpose of maintaining the
[Tribes’] treaty right to hunt and fish on reservation
lands.” Id. at 1410. The right is “non-consumptive” in
that the holder is not entitled to withdraw water from
the stream but has “the right to prevent other
appropriators from depleting the stream[’s] waters
below a protected level in any area where the nonconsumptive right applies.” Id. at 1411. Further, the
right carried a priority date of “time immemorial,” and
the amount of water protected under the right was not
to the flows present at the 1864 Klamath Treaty, but
rather to “the amount of water necessary to support
its hunting and fishing rights as currently exercised
to maintain the livelihood of Tribe members.” Id. at
1414–15. Additionally, the court concluded that:

Appendix A-9
[T]he [federal] [g]overnment has no ownership
interest in, or right to control the use of, the
Klamath Tribe’s hunting and fishing water rights.
The hunting and fishing rights from which these
water rights arise by necessary implication were
reserved by the Tribe in the 1864 treaty with the
United States. The hunting and fishing rights
themselves belong to the Tribe and may not be
transferred to a third party. Because the Klamath
Tribe’s treaty right to hunt and fish is not
transferable, it follows that no subsequent
transferee may acquire that right of use or the
reserved water necessary to fulfill that use.
Id. at 1418 (citations omitted). The court proceeded to
determine the extent of the federal government’s own
water right, id. at 1418–19, while leaving the
quantification of the Tribes’ water right to be
determined in the state proceeding, id. at 1399, 1407.
In 1952, Congress had adopted the McCarran
Amendment, 43 U.S.C. § 666(a), which waived the
United States’ sovereign immunity and granted
consent to join the United States in any suit for the
adjudication of rights to use of a river system or other
source.
Under Oregon law, a call system is used to
allocate water. The process, as relevant, begins when
the Oregon Water Resources Department (“OWRD”)
collects the water claims submitted by various
persons, resolves objections to them, and as needed
holds a hearing on the claims. Or. Rev. Stat.
§§ 539.021, .030, .100, .110. OWRD will issue
“findings of fact and an order of determination . . .
establishing the several rights to the waters of the
stream.” Id. § 539.130(1). Upon issuance of the order,

Appendix A-10
OWRD’s administrative determination is in “full force
and effect.” Id. § 539.130(4). OWRD files its findings
and order, along with the administrative record, in
Oregon Circuit Court for a non-jury adjudication,
where exceptions can be filed. Id. § 539.130(1), .150.
While the matter is pending before the Circuit Court,
the division of water from the stream involved in the
appeal is made in accordance with the order of OWRD.
Id. § 539.170. Upon the “final determination” of water
rights, OWRD will issue “a certificate setting forth the
name and post-office address of the owner of the right;
the priority of the date, extent and purpose of the
right, and if the water is for irrigation purposes, a
description of the legal subdivisions of land to which
the water is appurtenant.” Id. § 539.140. To
administer determined water rights, OWRD has
established water districts, id. § 540.010, whose
“watermasters” allocate water in accordance with the
users’ existing water rights of record in the OWRD, id.
§§ 540.020, .045(1)(a), with authority — when a holder
of water rights has placed a “call” for water — to
suspend conflicting upstream usages, see Or. Admin.
R. 690-025-0025.
In 1975, the Klamath Basin Adjudication began
when OWRD announced the intent to investigate
usage of the Klamath River. The Tribes and the
federal government filed the water enforcement
claims at issue in 1997. The federal government’s
claims (Nos. 625–40) included claims on behalf of the
Tribes, whose trust relationship had by then been
restored; the Tribes filed their own claim (No. 612),
which incorporated the claims made by the federal
government. Following a lengthy administrative
process, an administrative law judge in 2011 issued a
proposed order approving the claims of the federal

Appendix A-11
government and the Tribes and quantifying the flows
“necessary to establish a healthy and productive
habitat to allow the exercise of the Klamath Tribes’
hunting, fishing, trapping, and gathering rights
guaranteed by the treaty of 1864.”3 OWRD’s
Administrative Determination largely confirmed the
ALJ’s proposal as to the federal government’s claims,
but dismissed the Tribes’ omnibus claim (No. 612) as
“duplicative of the United States’ claims, not
additive,” because “[t]he United States holds the
rights recognized herein in trust for the Klamath
Tribes.” Administrative Determination, supra note 3,
at 4898, 5074 (citing Colorado River Water
Conservation Dist. v. United States, 424 U.S. 800, 810
(1976)). It also provisionally confirmed water rights
claimed by the ranchers with priority dates of 1864 or
later, including irrigation water rights acquired from
reservation allottees. See Am. Compl. ¶¶ 5, 8. OWRD
filed its Administrative Determination in the Oregon
Circuit Court, Or. Rev. Stat. § 539.130(1), and the
parties here, and other claimants, filed exceptions, id.
§ 539.150. The Oregon Circuit Court recently issued
an opinion on Phase 3, Part 1, Group C Motions, In re
Waters of the Klamath River Basin, No. WA1300001
(Or. Cir. Ct. Feb. 24, 2021) (“Or. Cir. Ct. Op., Feb. 24,
2021”).
The Tribes and the federal government executed
a
Protocol
Agreement
following
OWRD’s
Administrative Determination in order “to position
3 Amended
Corrected Findings of Fact and Order of
Determination at 5153, Klamath River Basin General Stream
Adjudication (Feb. 28, 2014), https://www.oregon.gov/owrd/
programs/WaterRights/Adjudications/KlamathRiverBasinAdj/P
ages/ACFFOD.aspx (hereinafter “Administrative Determination”).

Appendix A-12
themselves to make [water rights] calls in a timely
and effective manner.” Protocol at 1 (May 2013). It
provided that “[e]ach Party retains its independent
right to make a call” and that if after following a
consultation procedure “the Parties cannot agree on
whether to make a call, either Party may
independently make a call and the other will not
object to the call.” Id. at 3. As amended in 2019, the
Protocol extends some consultation deadlines and
adds that “the United States retains the right not to
concur with any call for water that is inconsistent with
the [Administrative Determination] or other legal
obligations.” Protocol at 4 (Mar. 2019).
In June 2013, the Tribes issued enforcement calls
to OWRD. Am. Compl. ¶ 25. Oregon, the Tribes, and
landowners including most of the ranchers here then
entered
into
the
Upper
Klamath
Basin
Comprehensive Agreement (the “Upper Basin
Agreement”). Id. ¶ 26. The Tribes agreed to forbear
from enforcing the full extent of their reserved
instream water rights in exchange for commitments
by the other parties as to water use, riparian
protection, and economic development. Notice
Regarding Upper Klamath Basin Comprehensive
Agreement, 82 Fed. Reg. 61,582, 61,582–83 (Dec. 28,
2017) (“Notice”). During 2014–16, the Tribes made
calls for flows at these lower levels. Am. Compl. ¶ 29.
But, in 2017, citing a lack of progress in implementing
the promised benefits, the Tribes reverted to the
higher water levels under OWRD’s Administrative
Determination. Id. ¶ 30. The federal government
terminated the Upper Basin Agreement in view of
Congress’s failure to approve the necessary funding.
Notice, 82 Fed. Reg. at 61,583–84. In 2018 and 2019,

Appendix A-13
the Tribes again issued calls for the full enforcement
of their water rights. Am. Compl. ¶¶ 31–32.
B.
The ranchers filed the instant lawsuit against the
federal government in May 2019. In their amended
complaint, they alleged that after termination of the
Upper Basin Agreement, the Tribes “by and through
the power and authority delegated by” the federal
government issued calls for enforcement of the full
extent of their instream flow water rights. Am. Compl.
¶¶ 31–32. OWRD’s enforcement of these calls, they
alleged, resulted in “widespread and severe
curtailment” of water rights for irrigation use on their
lands, resulting in environmental and economic
injury, and that similar injury will result from future
calls. Id. ¶¶ 31–38. Specifically, the ranchers alleged
they have suffered and will continue to suffer the
following injuries: (1) reduction of wildlife on their
ranches, (2) infestation of undesirable plants, (3) the
loss of plant communities, (4) lost revenues, and
(5) reduced property values. Id. ¶¶ 36–37. The
ranchers argued that the Protocol constitutes an
unlawful delegation to the Tribes of the federal
government’s authority to decide whether to concur in
a call. Id. ¶¶ 41–46. Further, they argued that the
calls made in 2013 and 2017–19 constituted major
federal actions for which an environmental impact
statement should have been prepared under the
National Environmental Policy Act (“NEPA”). Id.
¶¶ 47–53. As a remedy, they asked the district court
to set aside the Protocol, all previous calls, and to
enjoin any future calls by the federal government
until it “fully complied with the law,” including “to
make a final, independent decision on the propriety of

Appendix A-14
a call, having taken into account the general public
interest and welfare, as well as NEPA.” Id.
The district court dismissed the complaint for lack
of Article III standing. The court determined that the
Klamath Tribes “are entitled to enforce their senior
water rights . . . regardless of whether the Protocol . . .
stand[s].” Mem. Op. 18 (Jan. 31, 2020). The ranchers
thus could not demonstrate that their injuries were
traceable to the challenged Protocol or to any action of
the federal government. Id. at 10–15. Nor could they
show redressability because even if the federal
government were prohibited from enforcing the
Tribes’ rights, the district court concluded, the Tribes
would do so themselves, resulting in the same
hardships to the ranchers. Id. at 15–21. The ranchers
appeal.
II.
To establish standing to litigate in the federal
courts, Article III of the Constitution requires a
plaintiff to “present an injury that is concrete,
particularized, and actual or imminent; fairly
traceable to the defendant’s challenged behavior; and
likely to be redressed by a favorable ruling.” Dep’t of
Commerce v. New York, 139 S. Ct. 2551, 2565 (2019)
(internal quotation marks omitted) (quoting Davis v.
Fed. Election Comm’n, 554 U.S. 724, 733 (2008)).
Causation requires a “fairly traceable connection
between the plaintiff’s injury and the complained-of
conduct of the defendant.” Steel Co. v. Citizens for a
Better Env’t, 523 U.S. 83, 103 (1998). And
redressability requires a litigant to demonstrate “a
likelihood that the requested relief will redress the
alleged injury.” Id.

Appendix A-15
The ranchers frame their claims in terms of
procedural injury. They concede that as junior
appropriators they have no right to water that
infringes the Tribes’ instream rights, Appellants’ Br.
5–7, and priority enforcement of water rights through
a call system is in accordance with the nature of those
rights under Oregon law, see Montana v. Wyoming,
563 U.S. 368, 375–76 (2011); Klamath Irrigation Dist.
v. United States, 227 P.3d 1145, 1150 (Or. 2010).
To establish traceability in a procedural-injury
case, “an adequate causal chain must contain at least
two links:” (1) a connection between the omitted
procedure and a government decision and (2) a
connection between the government decision and the
plaintiff’s particularized injury. WildEarth Guardians
v. Jewell, 738 F.3d 298, 306 (D.C. Cir. 2013) (internal
quotation marks omitted) (quoting Fla. Audubon Soc’y
v. Bentsen, 94 F.3d 658, 668 (D.C. Cir. 1996)). The
plaintiff is not required to “show that but for the
alleged procedural deficiency the agency would have
reached a different substantive result. ‘All that is
necessary is to show that the procedural step was
connected to the substantive result.’” Id. (citations
omitted) (quoting Massachusetts v. EPA, 549 U.S. 497,
518 (2007)). Claims for procedural violations also
receive a “relaxed redressability requirement” in
which the plaintiff need only show that “correcting the
alleged procedural violation could still change the
substantive outcome in the [plaintiff’s] favor” not
“that it would effect such a change.” Narragansett
Indian Tribal Historic Pres. Office v. FERC, 949 F.3d
8, 13 (D.C. Cir. 2020). These relaxed standards do not
apply to the link between the government decision
and the plaintiff’s injury. See WildEarth Guardians,
738 F.3d at 306. “[Alt]hough the plaintiff in a

Appendix A-16
procedural-injury case is relieved of having to show
that proper procedures would have caused the agency
to take a different substantive action, the plaintiff
must still show that the agency action was the cause
of some redressable injury to the plaintiff.” Arpaio v.
Obama, 797 F.3d 11, 21 (D.C. Cir. 2015) (internal
quotation marks omitted) (quoting Renal Physicians
Ass’n v. U.S. Dep’t of Health & Human Servs., 489
F.3d 1267, 1279 (D.C. Cir. 2007)).
Notably here, “[w]here traceability and
redressability depend on the conduct of a third party
not before the court ‘standing is not precluded, but it
is ordinarily substantially more difficult to establish.’”
Competitive Enter. Inst. v. FCC, 970 F.3d 372, 381
(D.C. Cir. 2020) (quoting Lujan v. Defs. of Wildlife, 504
U.S. 555, 562 (1992)). “The party invoking our
jurisdiction must show that the third party will act ‘in
such manner as to produce causation and permit
redressability of injury.’” Id. A permissible theory of
standing “does not rest on mere speculation about the
decisions of third parties; it relies instead on the
predictable effect of Government action on the
decisions of third parties.” Dep’t of Commerce, 139 S.
Ct. at 2566.
The ranchers trace their alleged injuries to
OWRD orders that compelled them to curtail
irrigation of their lands. Am. Compl. ¶¶ 25, 30–32.
Those orders follow from the Tribes’ calls for
enforcement of their reserved water rights. Id. ¶¶ 22–
25, 29–33. The Tribes and OWRD are third parties not
joined as defendants in the ranchers’ lawsuit here.
Instead, the ranchers sued only the federal
government on the premise that the Tribes would be
unable to obtain enforcement of their calls for water

Appendix A-17
in the absence of concurrence by the federal
government. Am. Compl. ¶¶ 2, 38. To determine
whether the ranchers have standing, the court must
determine whether the federal government’s
concurrence in or non-objection to the Tribes’
enforcement calls will have a predictable effect on the
OWRD watermaster’s issuance of orders that require
the ranchers to curtail irrigation of their lands. For
the following reasons, we conclude that no such
concurrence requirement exists under federal or
Oregon law, and that, consequently, the ranchers
cannot establish the causation or redressability
necessary for standing.
A.
The Tribes’ water rights have their source in
federal law. The 1864 Klamath Treaty extinguished
the Tribes’ title to ceded lands while preserving their
“exclusive right” to hunt and fish on reservation land.
Art. I, 16 Stat. at 707–08. The scope of the Tribes’
water rights under the Treaty is a question of federal
law. Under the “reserved water rights” doctrine, when
the federal government creates an Indian reservation,
it impliedly reserves “that amount of water necessary
to fulfill the purpose of the reservation.” Cappaert, 426
U.S. at 141. The 1864 Treaty thus reserved to the
Tribes “a quantity of the water flowing through the
reservation . . . for the purpose of maintaining [their]
treaty right to hunt and fish on reservation lands.”
Adair, 723 F.2d at 1410. The nature of the federal
government’s trust relationship with the Tribes is also
governed by federal law, and the ranchers’
understanding of the federal government’s role and
the Protocol is “fundamentally in error.” Appellees’ Br.
24.

Appendix A-18
The principles announced by the Supreme Court
disfavor the ranchers’ assertion of standing. In United
States v. Mitchell (“Mitchell I”), 445 U.S. 535 (1980),
individual Indians who had been allotted former
reservation land sought damages from the federal
government for failing its fiduciary duties to
maximize the value of timber on the allotted land. Id.
at 537. The Supreme Court concluded that under the
General Allotment Act “the trust Congress placed on
allotted lands is of limited scope,” and held, therefore,
that the Act did not give rise to a claim for breach of
fiduciary duty of timber management. Id. at 542–43,
546. On remand, the U.S. Court of Claims interpreted
various statutes and regulations related to timber
management to impose fiduciary duties on the federal
government as trustee. The Supreme Court affirmed,
holding in United States v. Mitchell (“Mitchell II”), 463
U.S. 206 (1983), that the cited statutes and
regulations vested in the federal government “full
responsibility to manage Indian resources and land
for the benefit of the Indians” and thereby
“establish[ed] a fiduciary relationship and define[d]
the contours of the United States’ fiduciary
responsibilities.” Id. at 224. Although this conclusion
was “reinforced by the undisputed existence of a
general trust relationship between the United States
and the Indian people,” the Court principally
grounded its holding on the text of the statutes and
regulations, which “clearly establish[ed] fiduciary
obligations of the [federal government] in the
management” of the lands and resources at issue. Id.
at 224–26; see also COHEN’S HANDBOOK § 5.05(1)(b).
This court applied these principles in ShoshoneBannock Tribes v. Reno, 56 F.3d 1476 (D.C. Cir. 1995).
There, as here, a state had commenced a general

Appendix A-19
stream adjudication and joined the United States. Id.
at 1478. The Shoshone-Bannock Tribes argued that
they were entitled to water rights beyond their
reservation’s boundaries based on a treaty provision
granting them the right to hunt on unoccupied land
outside the reservation. Id. When the federal
government declined to assert the off-reservation
claims on their behalf, the tribes filed suit seeking to
compel the U.S. Attorney General to file their claims.
Id. at 1479. This court acknowledged that under the
federal doctrine reserved water rights on Indian
reservations “belong to the Indians rather than to the
United States, which holds them only as trustee.” Id.
Recognizing that the Attorney General generally
retained discretion to conduct litigation on behalf of
the United States, the court noted that the tribes had
identified no statute or other restriction limiting that
discretion. Id. at 1480–82. Explaining, the court
stated:
While it is true that the United States acts in a
fiduciary capacity in its dealings with Indian
tribal property, it is also true that the
government’s
fiduciary
responsibilities
necessarily depend on the substantive laws
creating those obligations. We agree with the
district court that an Indian tribe cannot force the
government to take a specific action unless a
treaty, statute or agreement imposes, expressly or
by implication, that duty.
Id. at 1482 (citations omitted). The “‘mere existence’
of the Treaty [did not] require[] the federal
government to protect whatever [water claims] the
Tribes may wish to advance.” Id.

Appendix A-20
Neither the 1864 Klamath Treaty, nor the 1954
Termination Act, nor the 1986 Restoration Act
establish a trust relationship between the federal
government and the Tribes that requires the federal
government to concur in the Tribes’ calls for
enforcement of their reserved instream water rights.
Article I of the Treaty guaranteed the Tribes’
“exclusive” hunting and fishing rights on the
reservation. That exclusive right was expressly
acknowledged by Congress as to the reserved water
rights in both the Termination Act and the
Restoration Act. Those Acts provided as well that
nothing in their provisions would “affect in any
manner any . . . water right of the tribe and its
members,” Restoration Act § 5, 100 Stat. at 850, or
“abrogate any water rights of the tribe and its
members,” Termination Act § 14(a), 68 Stat. at 722.
Despite restoring federal recognition to the Tribes and
the “rights and privileges” that might have been
diminished under the Termination Act, section 5 of
the Restoration Act expressly carved out the Tribes’
exclusive rights guaranteed by the Treaty. The federal
government’s historical trustee relationship with
Indian tribes was thereby limited so as not to interfere
with the Tribes’ exclusive rights under Article I of the
1864 Treaty.
In short, as was true before the Restoration Act,
the federal government has “no ownership interest in,
or right to control the use of, the Klamath Tribe’s
hunting and fishing” rights and attendant reserved
water rights. Adair, 723 F.2d at 1418; see Oregon
Dep’t, 473 U.S. at 765–68. Neither statutory text nor
the historical trusteeship that existed prior to the
Termination Act indicate that Congress intended in
the Restoration Act to require the federal

Appendix A-21
government’s concurrence for the Tribes’ instream
calls to be effective. They do not require the federal
government to assume “elaborate control,” Mitchell II,
463 U.S. at 224–25, over the Tribes’ water rights. Nor
would such a requirement be a “right,” “privilege,”
“service,” or “benefit” within the meaning of section 2
of the Restoration Act, 100 Stat. at 849. To the
contrary, such a concurrence requirement would
directly interfere with the Tribes’ exercise of their
sovereignty, here their assertion and control of their
reserved water rights. See Restoration Act § 5, 100
Stat. at 850. See generally COHEN’S HANDBOOK
§ 19.06. Indeed the federal government maintains
that it was obligated, if asked, to concur in lawful
water calls proposed by the Tribes. This court
previously held that despite the existence of a trust
relationship “an Indian tribe cannot force the
government to take a specific action unless a treaty,
statute, or agreement imposes, expressly or by
implication, that duty.” Shoshone-Bannock Tribes, 56
F.3d at 1482. The court need not consider whether
that standard was met here given our conclusion that
the Tribes were free to make calls in the exercise of
their treaty rights.
B.
The heart of the ranchers’ argument is that a
concurrence requirement is found in Oregon law,
which is made applicable to the Klamath Basin
Adjudication by the McCarran Amendment of 1952,
43 U.S.C. § 666(a).4 Appellants’ Br. 13–24. In Colorado
4

The McCarran Amendment provides:
Consent is given to join the United States as a defendant in
any suit (1) for the adjudication of rights to the use of water
of a river system or other source, or (2) for the

Appendix A-22
River Water Conservation District v. United States,
424 U.S. 800 (1976), the Supreme Court held that the
McCarran Amendment is properly understood to
reach Indian reserved water rights held in trust on
behalf of Indians. Id. at 809. The Supreme Court
emphasized that in “resolv[ing] conflicting claims to a
scarce resource,” id. at 812, such state jurisdiction “in
no way abridges any substantive claim on behalf of
Indians under the doctrine of reserved rights,” id. at
813. The McCarran Amendment, then, does not
change the fact that the substance and scope of tribal
water rights is governed by federal law. Arizona v.
San Carlos Apache Tribe of Ariz., 463 U.S. 545, 571
(1983). Necessarily, “[s]tate courts, as much as federal
courts, have a solemn obligation to follow federal law.”
Id. Still, in submitting federal water right
controversies to state courts for “adjudication” or
“administration,” the Supreme Court concluded that
state procedural rules apply because the McCarran
Amendment “bespeaks a policy that recognizes the
availability of comprehensive state systems for
administration of such rights, where it appears that the
United States is the owner of or is in the process of acquiring
water rights by appropriation under State law, by purchase,
by exchange, or otherwise, and the United States is a
necessary party to such suit. The United States, when a
party to any such suit, shall (1) be deemed to have waived
any right to plead that the State laws are inapplicable or
that the United States is not amenable thereto by reason of
its sovereignty, and (2) shall be subject to the judgments,
orders, and decrees of the court having jurisdiction, and may
obtain review thereof, in the same manner and to the same
extent as a private individual under like circumstances:
Provided, That no judgment for costs shall be entered
against the United States in any such suit.
43 U.S.C. § 666(a).

Appendix A-23
adjudication of water rights,” which advance the goal
of avoiding piecemeal proceedings and inconsistent
dispositions. Colorado River, 424 U.S. at 819; see
United States v. Idaho ex rel. Idaho Dep’t of Water
Res., 508 U.S. 1, 6–8 (1993).
The ranchers maintain that requiring the
concurrence of the legal title holder (i.e., the trustee)
is a state procedural rule to which the McCarran
Amendment subjects the Tribes’ reserved water
rights. The federal government suggests that even if
there were such a rule, it would be a substantive one
that flows from the nature of the trust relationship,
not state procedure. Appellees’ Br. 32–33. We need not
resolve that question because none of the four sources
of an Oregon-law concurrence requirement offered by
the ranchers show that Oregon law requires the
federal government to concur in the Tribes’ calls for
their reserved water rights held in trust.
(1) Fort Vannoy Irrigation District v. Water
Resources Commission, 188 P.3d 277 (Or. 2008). The
ranchers characterize Fort Vannoy as establishing a
general rule that “a call for the implementation of
water rights that are held in trust must be approved
by the holder of legal title.” Appellants’ Br. 16. No
such broad proposition is found in Fort Vannoy. There,
Ken-Wal Farms had filed an application to change the
points of diversion for water under two water rights
certificates, which had been issued to the Fort Vannoy
Irrigation District. Fort Vannoy, 188 P.3d at 280–81.
By Oregon statute, the “holder of any water use
subject to transfer” is given the authority to seek a
change of the point of diversion. Id. at 281 (quoting
Or. Rev. Stat. § 540.510(1)). An irrigation district to
facilitate the construction of irrigation works is

Appendix A-24
formed upon proposal of landowners, governed by an
elected board of directors, and has the power to
acquire lands for reservoirs or other purposes. Id. at
286. The “legal title to all such property ‘vests in the
irrigation district and is held by it in trust.’” Id.
(alterations omitted) (quoting Or. Rev. Stat.
§ 545.253). The narrow question in Fort Vannoy was
whether such a district is the “holder of any water use
subject to transfer,” when it receives the certificate to
a particular water right. Id. at 286, 288.
In identifying the “holder,” the court in Fort
Vannoy examined the trust relationship between the
irrigation district and its members. Id. at 295. The
trust relationship was not governed by federal Indian
law; instead, a state statute established that property
acquired by the district would be held in trust and the
board was empowered “to hold, use, acquire, manage,
occupy, possess and dispose of the property as
provided in the Irrigation District Law.” Id. (quoting
Or. Rev. Stat. § 545.253). Relying in part on the
Oregon law of private trusts, the court in Fort Vannoy
concluded that “the phrase ‘holder of any water use
subject to transfer’ cannot be construed as referring to
Ken–Wal, because such a construction would run
afoul of the trust relationship by permitting a
beneficiary to manage the trust property.” Id. at 295–
96.
As is evident, Fort Vannoy did not establish a
general procedural rule governing calls to enforce
water rights held in trust and its construction of the
state statutes governing irrigation districts has
nothing to say about a trust relationship created by
federal Indian law.

Appendix A-25
(2) State statutes related to water rights
certificates. The ranchers urge that the necessity of a
concurrence by the legal title holder is reflected in
Oregon’s procedures for stream adjudication.
Appellants’ Br. 17. At the conclusion of a stream
adjudication, they state, OWRD issues a certification
listing the owner of the right, which original
certificate is sent to the owner and used by the
watermasters to determine whether action should be
taken. See Or. Rev. Stat. § 539.140. The owner of an
equitable interest, they continue, does not receive a
certificate. Appellants’ Br. 17–18. The ranchers
maintain that the reasonable inference from this
administrative process is that implementation of
water rights is “keyed” to the certification, and
implementation of the Tribes’ equitable water right
depends at least in part on the federal government’s
say. Id. at 18. Even were the court to assume for
purposes of argument that the ranchers have
accurately described the process, they do not
demonstrate that OWRD regulations authorizing
enforcement of the Administrative Determination
require such a certificate. The OWRD watermasters
are to allocate water in accordance with the claims
determined in the Determination. See Or. Admin. R.
690-025-0020(1)–(2), -0025(1). Those claims list rights
in the name of both the Tribes and the federal
government. See, e.g., Administrative Determination
at 5076 (listing the Tribes as the “claimants” and the
federal government as “trustee” for the Tribes).
Nothing in the ranchers’ cited authority on certificates
imposes a concurrence requirement here.
(3) Denial of the Tribes’ independent claim in
OWRD’s Administrative Determination. As noted,
OWRD reasoned that the Tribes’ composite claim (No.

Appendix A-26
612) was “duplicative of the [federal government’s]
claims, not additive. The [federal government] holds
the rights recognized herein in trust for the Klamath
Tribes. Colorado River Water Conservation Dist. v.
United States, 424 [U.S.] 800, 810 (1976).”
Administrative Determination at 4898, 5074. The
citation to Colorado River reveals this ruling was
grounded in OWRD’s understanding of federal law.
Right or wrong, OWRD’s decision to deny the Tribes’
claim cannot reasonably be understood to impose a
state law concurrence requirement.
The ranchers’ view is that recognizing the Tribes’
authority to exercise their own water rights is
inconsistent with OWRD’s determination that the
federal government “holds” the water rights “in trust”
for the Tribes. See Appellants’ Br. 21–23. The
ranchers also point to the recent decision of the
Oregon Circuit Court indicating that the Tribes’ water
rights are held by the United States “in trust,” and
declining
to
disturb
the
Administrative
Determination on this point. Or. Cir. Ct. Op., Feb. 24,
2021, at 8–9; Appellants’ FED. R. APP. P. 28(j) Ltr. of
Mar. 3, 2021. This misunderstands the nature of the
limited trust involved. Although Congress may
abrogate or diminish treaty rights by clearly
expressed intent, Minnesota v. Mille Lacs Band of
Chippewa Indians, 526 U.S. 172, 202 (1999), the
Termination Act abrogated the Tribes’ land rights but
it did not abrogate any reserved water rights of the
Tribes. The Restoration Act restored the federal trust
relationship with the Tribes while expressly stating in
section 5 that it would not “affect in any manner any
. . . water right of the [Tribes].” 100 Stat. at 850.
Unlike in Mitchell II, where federal statutes and
regulations “establish[ed] ‘comprehensive’ responsi-

Appendix A-27
bilities” in the federal government for managing the
harvesting of Indian timber, 463 U.S. at 222 (quoting
White Mountain Apache Tribe v. Bracker, 448 U.S.
136, 145 (1980)), the relevant federal statutes have
preserved the Tribes’ instream water rights impliedly
reserved in the 1864 Treaty for tribal fisheries and
fishing rights. Absent a treaty or statutory provisions
clearly abrogating or diminishing the Tribes’ exclusive
instream rights, their beneficial ownership of
reservation lands includes “all rights normally
associated with ‘fee simple absolute title.’” Blackfeet
Tribe, 924 F.2d at 902 (quoting Shoshone Tribe of
Wind River, 304 U.S. at 117). In denying the Tribes’
independent claim, OWRD relied on the principle of
federal law that water rights reserved for Indians are
held in trust by the federal government, whose limited
trust designation does not imply federal authority or
obligations to control or manage the trust resource.
Given the specific text of the Termination Act and the
Restoration Act, the Tribes retain full authority to
control the use of their water right. See Oregon Dep’t.,
473 U.S. at 765–67; Adair, 723 F.2d at 1418; Blackfeet
Tribe, 924 F.2d at 902. Nothing in the recent opinion
of the Oregon Circuit Court could alter the federal law
that defines and determines the scope of the Tribes’
reserved water rights. The ranchers do not contest the
well-established legal federal precedent that the
substance of the Tribes’ reserved water rights remains
governed by federal law even in state water
adjudicatory proceedings. See Appellants’ Br. 13.
(4) Emails from OWRD employees suggesting the
federal government’s concurrence was necessary. The
ranchers’ reliance on informal communications
between OWRD employees is unavailing. In 2017,
upon receiving a call from the Tribes, an OWRD

Appendix A-28
employee emailed another employee, “[W]e need to
await concurrence from [the Bureau of Indian Affairs]
on this.” In 2018, an OWRD employee inquired about
whether the federal government would again provide
an “official concurrence.” Even assuming the emails
indicate these employees thought the federal
government’s concurrence was needed for an effective
Tribal call, in the absence of a legal basis for a
concurrence requirement these emails are insufficient
to show that OWRD would predictably decline to
enforce the Tribes’ instream rights without a
concurrence by the federal government. Insofar as the
emails reflect a misunderstanding of the federal trust
relationship, that would presumably be corrected by
today’s decision, which explains that there is no
federal law concurrence requirement for the Tribes’
water rights. State agency adjudicators, like the state
courts reviewing their decisions, can be expected to
discharge their “solemn obligation to follow federal
law.” San Carlos Apache Tribe, 463 U.S. at 571.
Moreover, to the extent the ranchers point to the
clause in the 2019 Protocol that the parties would not
“withhold any required concurrence” in a call made by
the other party after following the consultation
procedures, they overlook a key word. The Protocol
states that “either Party may independently make a
call and the other party will not withhold any required
concurrence or object to the call,” except that the
United States reserves the right not to concur in a call
that is inconsistent with the Administrative
Determination or other legal obligations. Protocol at
4. Inclusion of the word “any” belies the ranchers’
suggestion that the federal government had concluded
such concurrence was “required.”

Appendix A-29
In sum: There is no concurrence requirement
imposed by federal law on the Tribes’ reserved
instream water rights, whether by the 1864 Klamath
Treaty or the federal government’s trust relationship.
The McCarran Amendment subjects the Tribes’
reserved water rights to state procedural rules in its
quantification proceedings, but the substance and
scope of the Tribes’ rights remain governed by federal
law. Oregon law does not require federal government
concurrence to enforce the Tribes’ water rights, and
we leave for another day the question of what, if any,
legal effect such a state requirement could have.
Therefore, invalidating the Protocol, and requiring
the federal government to independently assess
whether it would concur in the Tribes’ calls, would not
remedy the ranchers’ injuries. The Tribes would
continue to make calls in the exercise of their Treaty
rights, and OWRD would enforce the calls. Because
the ranchers fail to show their alleged injuries are
fairly traceable to federal government action or
inaction, or would be redressed by striking the
Protocol, they lack Article III standing. Accordingly,
the dismissal of the ranchers’ complaint for lack of
standing is affirmed.

Appendix B-1
Filed 01/31/2020
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
GERALD H. HAWKINS,
et al.,
Plaintiffs,
v.
DAVID L.
BERNHARDT,
Secretary, U.S.
Department of the
Interior, et al.,

Civil Action No.
19-1498 (BAH)
Chief Judge Beryl A.
Howell

Defendants.

MEMORANDUM OPINION
Plaintiffs, a group of landowners in the Upper
Klamath Basin in Oregon, seek declaratory and
injunctive relief against defendants, officials in the
Bureau of Indian Affairs (“BIA”) and the Department
of the Interior, to prevent enforcement of the Klamath
Tribes’ reserved water rights.1 In particular, plaintiffs
challenge two protocol agreements executed by the
Klamath Tribes and the BIA, setting forth procedures
1 The four named defendants are David L. Bernhardt, Secretary
of the Interior; Tara Katuk MacLean Sweeney, Assistant
Secretary-Indian Affairs; Darryl Lacounte, Director, U.S.
Bureau of Indian Affairs; and Bryan Mercier, Regional Director,
U.S. Bureau of Indian Affairs, Northwest Regional Office, each
of whom are sued in their official capacities. Am. Compl. ¶¶ 1, 9–
13, ECF No. 15.

Appendix B-2
for the enforcement of the tribes’ water rights, arguing
that in signing the agreements, the BIA unlawfully
delegated federal power to the tribes and,
additionally, violated the National Environmental
Policy Act (“NEPA”). See Am. Compl. ¶¶ 41–53; Pl.’s
Opp’n to Mot. to Dismiss (“Pl.’s Opp’n”) at 1, ECF No.
19. Defendants move pursuant to Federal Rules of
Civil Procedure 12(b)(1) and 12(b)(6) to dismiss the
plaintiffs’ amended complaint for lack of subject
matter jurisdiction and for failure to state a claim. See
Defs.’ Mot. to Dismiss and Mem. Pts. and Auth. in
Support (“Defs.’ Mot.”), ECF No. 17. The defendants
are correct that the plaintiffs lack standing, and thus
the amended complaint is dismissed under Rule
12(b)(1).2
I.

BACKGROUND

The gravamen of this case is the repercussions to
the plaintiffs of enforcement of tribal water rights. To
provide context for resolution of the pending motion,
the applicable treaty, laws and challenged protocol
agreements are described below, followed by a
summary of the plaintiffs’ claims.
A. Overview of Legal Regime Governing
Relationship Between United States and
Klamath Tribes
For more than a thousand years, the Klamath
Tribes “hunted, fished, and foraged in the area of the
Klamath Marsh and upper Williamson River,” in
southern Oregon. United States v. Adair, 723 F.2d

2 Having reached the conclusion that dismissal is appropriate
under Rule 12(b)(1), the alternative basis for dismissal, under
Rule l2(b)(6), need not be addressed. See Defs.’ Mot. at 29–42.

Appendix B-3
1394, 1397 (9th Cir. 1983).3 In 1864, the Tribes ceded
approximately 12 million acres of land to the United
States by treaty, and, in exchange, the United States
reserved roughly 800,000 acres for the Tribes. Id. at
1398; Treaty with the Klamath (“Klamath Treaty”),
16 Stat. 707 (1864). Article I of the Klamath Treaty
granted the tribes “the exclusive right to hunt, fish,
and gather on their reservation.” Adair, 723 F.2d at
1398; 16 Stat. 708. Article II created a [trust fund]
designed to “advance [the Tribes] in civilization ...
especially in agriculture.” Id.
In 1954, Congress terminated federal supervision
of the Tribes. See Klamath Termination Act, 68 Stat.
718 (1954) (codified at 25 U.S.C. § 564, now omitted).
“The express purpose of [the Klamath Termination
Act] was to terminate federal supervision over the
Klamath Tribe of Indians, to dispose of federally
owned property acquired for the administration of
Indian affairs, and to terminate the provision of
federal services to the Indians solely because of their
status as Indians.” Kimball v. Callahan, 493 F.2d 564,
567 (9th Cir. 1974). The Termination Act did not,
however, abrogate the Tribes’ treaty rights to hunt,
fish, and gather. Id. at 568–69; Adair, 723 F.2d at
1411–12. Indeed, the Termination Act states
explicitly, “[n]othing in this Act shall abrogate any
water rights of the tribe and its members” and
“[n]othing in this Act shall abrogate any fishing rights
or privileges of the tribe or the members thereof
3 The Klamath Tribes are currently a federally recognized nation
consisting of three related tribes: the Klamath, Modoc, and
Yahooskin. Older caselaw concerning the Tribes’ rights generally
refers to the Tribes in the singular, as the “Klamath Tribe,” but
the federal government, the parties and the Tribes themselves
use the more accurate plural “Klamath Tribes.”

Appendix B-4
enjoyed under Federal Treaty.” 68 Stat. at 722, 25
U.S.C. § 564m.
Pursuant to the Termination Act, certain tribal
members elected to withdraw from the tribes in
exchange for the cash value of their proportionate
interest in the tribal property. Kimball, 493 F.2d at
567. Reservation lands were sold “to pay the
withdrawn members,” while a smaller portion was
retained in trust under a “nongovernmental tribal
management plan.” Id.
In 1986, Congress restored the Klamath Tribes to
federal recognition. See Klamath Indian Tribe
Restoration Act, 100 Stat. 849 (1986) (codified at 25
U.S.C. § 566). The Restoration Act “restored the
Tribes’ federal services, as well as the government-togovernment relationship between the Tribe and the
United States,” but “did not alter existing property
rights,” meaning previously sold reservation lands
were not returned. Klamath Tribe Claims Committee
v. United States, 106 Fed. Cl. 87, 90 (2012).
In 1975, the United States filed suit in Federal
District Court in Oregon, seeking a declaratory
judgment to determine the respective water rights of
the Klamath Tribes and interested private land
owners in Klamath County. See Am. Compl. At ¶ 15;
Defs.’ Mot. at 9. The Tribes intervened as a plaintiff,
and Oregon intervened as a defendant. Defs.’ Mot. at
9. The district court’s finding that the Tribes had
implied water rights “necessary to preserve their
hunting and fishing rights,” under the 1864 Klamath
Treaty, United States v. Adair, 478 F. Supp. 336, 350
(D. Or. 1979), was affirmed, Adair, 723 F.2d at 1399
(holding that the Tribes possessed a right “to as much
water on the Reservation lands as they need to protect

Appendix B-5
their hunting and fishing rights”). Specifically, the
Ninth Circuit concluded that the Termination Act had
not abrogated Tribes’ water rights, id. at 1411–12,
which took priority over those of private landowners
and allowed the tribes to “prevent other appropriators
from depleting the streams and waters below a
protected level in any area where the[ir] nonconsumptive right applies, id. at 1411.
While protecting the Tribes’ water rights, the
Ninth Circuit did not determine the precise water
levels subject to protection. See United States v.
Braren, 338 F.3d 971, 973 (9th Cir. 2003).
Adjudication over protected water levels took place
between 1976 and 2013 in lengthy state-run
administrative proceedings in Oregon. The United
States, the Tribes, and private landowners—including
many of the plaintiffs in this case—filed thousands of
claims in the state’s administrative proceeding,
known as the Klamath Basin Adjudication. See id. At
the close of the administrative phase of the Klamath
Basin Adjudication, the Oregon Water Resources
Department (“OWRD”) issued findings of fact and an
order of determination on March 7, 2013, which was
amended on February 14, 2014. Am. Compl. ¶ 19;
Defs.’ Mot. at 11. OWRD’s Amended and Corrected
Findings of Fact and Order of Determination
(“ACFFOD”) provisionally determined more than 700
claims, including claims brought by the United States
as trustee on behalf of the Klamath Tribes. Am.
Compl. ¶ 20. These determinations quantified tribal
water rights “for the Wood River and two of its
tributaries, Fort Creek and Crooked Creek, the
Sprague River and several of its tributaries, including
Five Mile Creek, and the lower Williamson River and

Appendix B-6
several of its tributaries, including Larkin Creek and
Spring Creek.” Id.
Under Oregon Revised Statute (“ORS”) 539.150,
parties subject to the ACFFOD may file exceptions to
OWRD’s determinations in Oregon state circuit court.
Plaintiffs and the United States both filed exceptions,
see Defs.’ Mot. at 11, which remain pending and “are
not likely to be resolved for several more years,” Am.
Compl. ¶ 20. Notwithstanding these appeals,
determined claims under the ACFFOD are in effect,
pursuant to ORS 539.130(4). See Am. Compl. ¶ 19. A
watermaster appointed by the OWRD is tasked with
enforcing such claims. See ORS 540.045(a)-(b). To
enforce their rights under the ACFFOD, water users
issue “calls” to the watermaster, who, upon
investigation, regulates upstream usage to maintain
necessary supply to satisfy senior downstream water
rights. See Defs.’ Mot. at 12.
B. Challenged
Protocol
Agreements
Between United States and Klamath
Tribes
In 2013, following OWRD’s preliminary
determination, the BIA and the Klamath Tribes
entered into one of the two protocol agreements
challenged in this lawsuit, in order to delineate
procedures for the issuance of calls enforcing the
Tribes’ water rights. Am. Compl. ¶ 22; Defs.’ Mot., Ex.
1, Protocol Agreement Between the Klamath Tribes
and the Bureau of Indian Affairs (May 30, 2013)
(“2013 Protocol Agreement”), ECF No. 17-1. The 2013
Protocol Agreement established that a representative
of the Tribes would, when necessary, “contact[] OWRD
to make calls for enforcement of the Tribal water
rights.” 2013 Protocol Agreement ¶ 1. Prior to making

Appendix B-7
such a call, the Tribes would notify the BIA, two
business days in advance, to provide “the reasons for
making such a call, including: the Tribal water right
not being met, the water source and amount for the
call, and an assessment based on the Tribes’
information and belief that water is currently being
diverted from the source at issue and that a call would
provide water for the Tribal water right.” Id. ¶ 2.
Pursuant to the agreement, the BIA would then
“timely provide an email response to the call notice
stating either (i) agreement with making the proposed
call, (ii) changes to the scope of the proposed call,
(iii) disagreement with making the proposed call and
the reasons for that disagreement, or (iv) that BIA
needs an additional business day to complete
deliberations on the call notice.” Id. ¶ 3.
In the event of disagreement, the 2013 Protocol
Agreement established additional procedures for
further discussion between the Tribal Chairman and
the BIA’s Regional Director. See id. at 4. Although this
agreement authorized the United States to initiate
calls on behalf of the tribes, should the Tribes not
issue a call notice when necessary, see id. at 5, both
the Tribes and the United States retained an
“independent right to make a call” such that if “the
Parties cannot agree on whether to make a call, either
Party may independently make a call and the other
will not object to the call,” id. ¶ 7.
In 2019, the BIA and Klamath Tribes replaced the
2013 Protocol Agreement with an Amended Protocol
Agreement to provide for seasonal “standing calls”
and enable “OWRD to more consistently monitor,
observe, and, when necessary, regulate junior water
users.” Defs.’ Mot., Ex. 2, Protocol Agreement

Appendix B-8
Between the Klamath Tribes and the Bureau of
Indian Affairs (Mar. 7, 2019) (“2019 Protocol
Agreement”), Preamble, ECF No. 17-2. The 2019
Protocol Agreement set forth procedures for issuing
standing calls twice yearly, “one for the irrigation
season (beginning on or about March 1) and one for
the non-irrigation season (beginning on or about
November 1).” Id. The Agreement also extended the
time periods by which the BIA was to respond to
proposed calls, to seven business days for proposed
standing calls, and three business days for other calls.
See id. ¶¶ 2–3. Again, the amended agreement
retained the “independent right” of each party to
make a call without the other’s concurrence. Id. ¶ 12.
In so doing, however, the agreement stipulated that
the United states “retains the right not to concur with
any call for water that is inconsistent with the
ACFFOD or other legal obligations.” Id.
C. Implementation of ACFFOD
In June 2013, following enforcement calls made
by the Tribes with the concurrence of the BIA,
pursuant to the Protocol Agreement, OWRD issued
orders directing the plaintiffs and other landowners in
the Upper Klamath Basin to cease all irrigation. Am.
Compl. ¶ 25. State authorities then initiated
settlement negotiations that, in April 2014, resulted
in a comprehensive water settlement between the
tribes and landowners called the Upper Klamath
Basin Comprehensive Agreement (“UKBCA”). Id.
¶ 26. The UKBCA effectively lowered the water levels
protected by the Tribes’ rights, and established new,
lower levels “designed to support fish and wildlife
resources important to the Klamath Tribes while also
providing irrigation opportunities for plaintiffs and

Appendix B-9
other irrigators...” Id. ¶ 28. The Tribes and United
States issued calls between 2014 and 2016 to enforce
these lower, agreed-to water levels (referred to as
“instream flows” and “streamflow levels”) under the
UKBCA. Id. at ¶ 29.
On December 28, 2017, the former secretary of the
Interior issued a Negative Notice in the Federal
Register terminating the UKBCA after Congress left
the agreement unfunded. See id. at ¶ 31; 82 Fed. Reg.
61582 (Dec. 28, 2017). In 2017 and 2018, after the
UKBCA’s collapse, the Tribes and the United States
issued calls seeking to enforce the tribes’ water rights
at the levels previously determined by the ACFFOD
rather than the lower levels specified in the UKBCA.
Am. Compl. ¶¶ 30–31. As in 2013, OWRD’s resulting
enforcement of the tribes’ water rights resulted in the
“severe curtailment of irrigation” and in certain cases
in “complete shut-offs” for plaintiffs and other
landowners in the Upper Klamath Basin. Id. at ¶ 31.
In April 2019, the Tribes and United States again
issued calls to OWRD “for enforcement of the full
instream flow level water rights.” Id. at ¶ 32.
D. Plaintiffs’ Instant Claims
In May 2019, the plaintiffs, including over thirty
individual ranchers and ranches located in the Wood
River Valley in Klamath County, brought this action
seeking declaratory and injunctive relief invalidating
the 2019 Protocol Agreement, vacating those calls for
enforcement made between 2013 and 2019, and
prohibiting the defendants from issuing further calls
for enforcement. See Complaint., Prayer for Relief
(May 22, 2019), ECF No. 1; Am. Compl., Prayer for
Relief. In August, the plaintiffs filed an Amended
Complaint, see Am. Compl., and in September, the

Appendix B-10
defendants filed the pending motion to dismiss the
Amended Complaint. Following grant of an extension
requested by the plaintiffs, see Min. Order (Sept. 17,
2019), the defendants’ motion to dismiss became ripe
for review on December 14, 2019.4
II. LEGAL STANDARD
“‘Federal courts are courts of limited jurisdiction,’
possessing ‘only that power authorized by
Constitution and statute.”’ Gunn v. Minton, 568 U.S.
251, 256 (2013) (quoting Kokkonen v. Guardian Life
Ins. Co. of Am., 511 U.S. 375, 377 (1994)). Under the
Constitution “the ‘judicial Power of the United States’
is limited to ‘Cases’ or ‘Controversies,’ U.S. Const. art.
III, §§ 1-2, and the requirement of standing is ‘rooted
in the traditional understanding of a case or
controversy.”’ Twin Rivers Paper Co. LLC v. SEC, 934
F.3d 607, 612–13 (D.C. Cir. 2019) (quoting Spokeo,
Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016)). To
establish standing, a “plaintiff must show (1) an
‘injury in fact,’ (2) a sufficient ‘causal connection
between the injury and the conduct complained of,’
and (3) a ‘likel[lihood]’ the injury ‘will be redressed by
a favorable decision.”’ Susan B. Anthony List v.
Driehaus (SBA), 573 U.S. 149, 157–58 (2014) (quoting
Lujan v. Defs. Of Wildlife, 504 U.S. 555, 560–61
(1992)); see also Woodhull Freedom Foundation, et al.
v. United States, No. 18-5298, 2020 WL 398625, at *6
(D.C. Cir. Jan. 24, 2020); Carbon Sequestration
Council v. E.P.A., 787 F.3d 1129, 1133 (D.C. Cir.
4 The plaintiffs have requested a hearing, Pl.’s Opp’n at 1, n.1,
but given the exhaustive briefing on the relevant issues, no
hearing is necessary, see LCvR 7(f) (noting that “allowance” of
party’s request for oral hearing, “shall be within the discretion of
the Court”).

Appendix B-11
2015); Grocery Mfrs. Ass’n v. E.P.A., 693 F.3d 169, 174
(D.C. Cir. 2012). “The party invoking federal
jurisdiction bears the burden of establishing these
elements.” Lujan, 504 U.S. at 561; see also Twin
Rivers Paper Co., 934 F.3d at 613 (same). Absent
subject-matter jurisdiction, the court must dismiss a
case. See Arbaugh v. Y & H Corp., 546 U.S. 500, 506–
07 (2006); FED. R. CIV. P. 12(h)(3).
III. DISCUSSION
Defendants move to dismiss the plaintiff’s
Amended Complaint on the grounds that the plaintiffs
can demonstrate neither causation nor redressability
and therefore lack standing. See Defs.’ Mot. at 1. The
plaintiffs counter that the requirements of standing
are met due to two procedural injuries: first, under the
Protocol Agreements, the government unlawfully
delegated federal power to make calls for the
enforcement of federal reserved water rights to the
Tribes, see Pl.’s Opp’n at 4; Am. Compl. ¶ 46 (First
Claim for Relief); and second, that the government
violated NEPA “in each of 2013 and 2017 through
2019” by failing to conduct an environmental impact
study before acceding to the Tribes’ calls for
enforcement, Pl.’s Opp’n at 5; Am. Compl. ¶ 53
(Second Claim for Relief).
Notwithstanding the hardships alleged by the
plaintiffs arising from OWRD’s enforcement of the
Tribes’ water rights, which enforcement allegedly
“resulted in widespread and severe curtailment of
irrigation, and in many cases complete shut-offs,” Am.
Compl. ¶¶ 30, 31, 32, and concomitant “substantial
injuries
to
their
aesthetic,
environmental,
recreational and other interests,” as well as loss of
wildlife and grass plants, and a decrease in land

Appendix B-12
value. id. ¶¶ 36-37, due to nature of the tribal water
rights central to this case, the plaintiffs have failed to
meet the standing requirements of causation and
redressability. Thus, for the reasons explained in
more detail below, the defendants are correct, and the
amended complaint must be dismissed.
A. Plaintiffs Have Established
Causation Nor Redressability

Neither

The plaintiffs allege that the defendants’
enforcement, in accordance with the Protocol
Agreements, of the Klamath Tribes’ water rights,
suffers from the procedural defects of improper
delegation of federal power and violation of NEPA. See
Pl.’s Opp’n at 2–16. To demonstrate standing “a
procedural-rights plaintiff must show not only that
the defendant’s acts omitted some procedural
requirement, but also that it is substantially probable
that the procedural breach will cause the essential
injury to the plaintiff’s own interest.” Fla. Audubon
Soc. v. Bentsen, 94 F.3d 658, 664–65 (D.C. Cir. 1996)
(en banc); see also National Parks Conservation Ass’n
v. Manson, 414 F.3d 1, 5–6 (D.C. Cir. 2005).
When the alleged harm, however, stems from the
government’s regulation of an independent third
party not before the court, rather than the plaintiff
directly, standing is ‘“substantially more difficult’ to
establish.” Lujan, 504 U.S. at 562 (quoting Allen v.
Wright, 468 U.S. 737, 758 (1984)). In such cases,
“causation and redressability ordinarily hinge on the
response of the regulated (or regulable) third party to
the government action or inaction—and perhaps on
the response of others as well.” Id. To prove standing
in these circumstances, the plaintiff must “adduce
facts showing that [third-party] choices have been or

Appendix B-13
will be made in such manner as to produce causation
and permit redressability of injury.”’ Ctr. For Law &
Educ., 396 F.3d at 1161 (quoting Nat’l Wrestling
Coaches Ass’n v. Dep’t of Educ., 366 F.3d 930, 938
(D.C. Cir. 2014)). In other words, the plaintiff must
allege facts “sufficient to demonstrate a substantial
likelihood that the third party directly injuring the
plaintiff would cease doing so as a result of the relief
the plaintiff sought.” Renal Physicians Ass’n v. U.S.
Dep’t of Health and Human Servs., 489 F.3d 1267,
1275 (D.C. Cir. 2007); see also Klamath Water Users
Ass’n v. F.E.R.C., 534 F.3d 737, 739 (D.C. Cir. 2008).
Here, the plaintiffs complain about harms derived
from the enforcement of the rights of an independent
third party not before the Court, namely, the Klamath
Tribes. In these circumstances, plaintiffs lack
standing because they have demonstrated neither
causation nor redressability. To understand why this
is the case, the nature of the tribal water rights
enforced by the tribes, the BIA, and OWRD are
explained first.
1. Federally
Rights

Protected

Tribal

Water

In Winters v. United States, 207 U.S. 564, 576
(1908), the Supreme Court held that a treaty
establishing an Indian reservation implicitly created
water rights necessary to carry out the purposes of the
reservation. As the Court has since explained, “when
the Federal Government withdraws its land from the
public domain and reserves it for a federal purpose,
the
Government,
by
implication,
reserves
appurtenant water then unappropriated to the extent
needed to accomplish the purpose of the reservation.”
Cappaert v. United States, 426 U.S. 128, 138 (1976);

Appendix B-14
see also Arizona v. California, 373 U.S. 546, 600 (1963)
(“The Court in Winters concluded that the
Government, when it created that Indian Reservation,
intended to deal fairly with the Indians by reserving
for them the waters without which their lands would
have been useless.”).
Winters’ recognition of water rights “rests on the
idea that the reservation of public lands for a public
purpose implies the reservation of unappropriated,
and thus available, water appurtenant to the land to
the extent necessary to fulfill that purpose.” Shoshone
Bannock Tribes v. Reno, 56 F.3d 1476, 1479 (D.C. Cir.
1995). Such rights are “federal right[s], derived from
the federal reservation of the land,” and thus “do[] not
depend on state law.” Id.; see also Cappaert, 426 U.S.
at 145 (reserved water rights are “governed by federal
law,” and are “not dependent upon state law or state
procedures.”); F. Cohen, Handbook of Federal Indian
Law (“Cohen’s Handbook”) 1210 (2012) (“Indian
reserved rights to water are determined by federal,
not state, law.”). As a general rule, reserved tribal
water rights persist, regardless of actual use, unless
they are relinquished by treaty or explicitly abrogated
by Congress. See United States v. Dion, 476 U.S. 734,
738–39 (1986) (“We have required that Congress’
intention to abrogate Indian treaty rights be clear and
plain” since “Indian treaty rights are too fundamental
to be easily cast aside.”); Navajo Nation v. Dep’t of the
Interior, 876 F.3d 1144, 1155 (9th Cir. 2017) (“Winters
rights, unlike water rights gained through prior
appropriation, are not lost through non-use.” (citing
Colville Confederated Tribes v. Walton, 647 F.2d 42,
51 (9th Cir. 1981)).

Appendix B-15
The water rights of the Klamath Tribes are
reserved treaty rights of exactly the nature expressly
protected in Winters. In Adair, the Ninth Circuit held
that the 1864 Klamath Treaty, which explicitly gave
the Tribes a right to maintain their traditional
hunting and fishing practices, implicitly created a
water right necessary to fulfill that purpose. The
Tribes’ water right is “non-consumptive,” meaning
that the Tribes are not entitled to “withdraw water
from the stream for agricultural, industrial, or other
consumptive uses.” Adair, 723 F.2d at 1411. Instead,
“the entitlement consists of the right to prevent other
appropriators from depleting the streams below a
protected level in any area where the nonconsumptive right applies.” Id; see also Baley v.
United States, 942 F.3d 1312, 1322 (Fed. Cir. 2019)
(characterizing the Klamath Tribes’ water rights, as
determined in Adair, in similar terms).5
The priority date of the Tribes’ water rights—
meaning the date at which the rights were perfected—
is “time immemorial.” Adair, 723 F.2d at 1414. That
is because, as the Ninth Circuit held in Adair, “[t]he
5 Thus, despite the plaintiffs’ NEPA claim here, enforcement of
the Tribes’ water rights actually serves an environmental
purpose, since those rights entitle the Tribes to maintain water
levels necessary to prevent the extinction of certain fish the
Tribes traditionally hunted. See Baley, 942 F.3d at 1328–29
(explaining, as the Court of Federal Claims found, that the
Klamath Tribes have an “aboriginal right to take fish [that]
entitles them to prevent junior appropriators from withdrawing
water from Upper Klamath Lake and its tributaries in amounts
that would cause the extinction of the Lost River and short nose
suckers.” (internal quotations omitted)); see also Defs.’ Reply at
17, n.8 (noting that “enforcement of the Tribes’ water rights is
important to efforts to avoid adverse impacts to the health of the
treaty-protected fishery.”).

Appendix B-16
rights were not created by the 1864 Treaty, rather, the
treaty confirmed the continued existence of these
rights.” Id.; see also Baley, 942 F.3d at 1328, 1341
(affirming the Court of Federal Claims’ conclusion
that the Klamath Tribes’ water right carries a “time
immemorial” priority date).
As a result, as the plaintiffs concede, the Tribes’
water rights are senior to and take priority over the
subsequently established water rights of the
plaintiffs. See Am. Compl. ¶ 15. In Oregon, as in most
Western states, state-law water rights are determined
according to the doctrine of prior appropriation. Adair,
723 F.2d at 1410. Prior appropriation is essentially a
first-in-time rule. Under this doctrine, “the one who
first appropriates water and puts it to beneficial use
thereby acquires a vested right to continue to divert
and use that quantity of water against all claimants
junior to him in point of time.” Arizona, 373 U.S. at
555. In Adair, the Ninth Circuit held that the
“Klamath Tribe is entitled to a reservation of water,
with a priority date of immemorial use, sufficient to
support exercise of treaty hunting and fishing rights.”
Adair, 723 F.2d at 1415. Applying this federally
protected right as against the state-law rights of
neighboring junior appropriators, the Klamath Basin
Adjudication then quantified the specified water
levels to which the Tribes were entitled. See Am.
Compl. ¶ 20 (describing the conclusions of the
ACFFOD).
Thus, the Klamath Tribes have a legally
enforceable federal right to maintain streamflow
levels as quantified in the ACFFOD. That right, as is
the case with all reserved tribal rights, belongs to the
tribes. Shoshone Bannock Tribes, 56 F.3d at 1479

Appendix B-17
(“With respect to reserved water rights on Indian
reservations, these federally-created rights belong to
the Indians rather than to the United States.”); see
also Cohen’s Handbook at 1238 (“Reserved rights to
water are property rights held by tribes and their
members.”). The United States holds legal title “only
as trustee.” Shoshone Bannock Tribes, 56 F.3d at
1479. Consistent with the United States’ trust
obligation to protect Indian treaty rights, the
government can bring suit to enforce those rights, but
the rights themselves clearly “belong to the Tribes.”
United States v. Washington, 853 F.3d 946, 967 (9th
Cir. 2017), aff’d by an equally divided court, 138 S. Ct.
735 (2018).
2. Plaintiffs’ Focus on the
Agreements is Misplaced

Protocol

Set against these clearly established legal
principles surrounding federally protected tribal
water rights, the plaintiffs cannot establish causation
or redressability. First, with regard to causation, the
plaintiffs’ injuries are not “fairly traceable” to the
Protocol Agreements. Lujan, 504 U.S. at 560 (internal
quotation marks omitted). Nor is it “substantially
probable” that the procedural breaches alleged by the
plaintiffs have caused or will cause “the essential
injury to the plaintiff’s own interest.” Fla. Audubon
Soc., 94 F.3d at 665. The Protocol Agreements are not
the source of the Tribes’ authority to enforce their
water rights against those of junior appropriators,
including plaintiffs. That authority is clearly
established in federal law and stems from the 1864
Treaty. With a priority date of “time immemorial,” as
held in Adair, the Tribes’ federal water right is senior
to plaintiffs’ water rights.

Appendix B-18
Meanwhile, the plaintiffs do not allege that the
Protocol Agreements amplified or otherwise distorted
the Tribes’ federally protected rights to the detriment
of the plaintiffs. The calls for enforcement made
between 2013 and 2018 by the Tribes and the BIA
were calls to enforce to the levels quantified by the
ACFFOD or to lesser agreed-upon levels. See Am.
Compl. ¶¶ 25, 29, 32. In other words, the complained
of calls, implemented in accordance with the Protocol
Agreements, did nothing to increase the Tribes’ water
rights entitlement. In 2013, 2017, and 2018, the calls
simply sought to protect the Tribes’ non-consumptive
right as quantified by the ACFFOD. See id. ¶¶ 25, 32.
Between 2014 and 2016, the Tribes sought less water,
in accord with the now defunct UKBCA settlement
agreement reached between the Tribes and the
plaintiffs. See id. ¶¶ 28–29. Thus, the ultimate cause
of plaintiff’s essential injuries the waterflow
reductions and shut-offs instituted by OWRD—is the
Klamath Tribes’ federally protected, senior water
right, not the Protocol Agreements. The Protocol
Agreements simply establish a consultation
procedure, as well as points of contact to facilitate
communication with OWRD when necessary.
Second, the plaintiffs have also failed to
demonstrate redressability. When, as here, the
complained of harm depends on the behavior of a third
party not before the Court, the plaintiffs must allege
facts “sufficient to demonstrate a substantial
likelihood that the third party directly injuring the
plaintiff would cease doing so as a result of the relief
the plaintiff sought.” Renal Physicians Ass’n, 489 F.3d
at 1275; see also Klamath Water Users Ass’n, 534 F.3d
at 739. The plaintiffs argue that invalidating the
Protocol Agreements would redress their ultimate

Appendix B-19
injuries. See Pl.’s Opp’n at 13–15. Yet, even if the
Protocol Agreements were invalidated, plaintiffs
provide no reason to believe the Klamath Tribes would
cease to seek enforcement of their water rights. As
discussed, these rights, held in trust by the United
States, belong to the Tribes. See Shoshone Bannock
Tribes, 56 F.3d at 1479; United States v. Washington,
853 F.3d at 967. With or without the Protocol
Agreements, the Tribes thus remain entitled to seek
enforcement of their water rights at the levels
quantified by the ACFFOD.
The redressability problem plaintiffs face is
analogous to that in St. John’s United Church of
Christ v. F.A.A., 520 F.3d 460 (D.C. Cir. 2008), a case
that also involved harm caused by a third-party.
There, the D.C. Circuit held that the plaintiffs lacked
standing to challenge the procedure by which the
Federal Aviation Administration (“FAA”) approved
grant funding for an airport extension project carried
out by the city of Chicago. The plaintiffs alleged
procedural injury, arguing that the FAA violated the
Religious Freedom Restoration Act in approving the
grant money. Nonetheless, the Circuit found no
redressability since the plaintiffs failed to show a
“substantial probability” that the city—the thirdparty source of plaintiff’s complained of harm—would
have abandoned the airport extension without the
FAA’s grant funds. St. John’s United Church, 520
F.3d at 463. The “redressability obstacle the
petitioners face,” the Circuit explained, “is
uncertainty over what Chicago would do—not the
FAA.” Id.
Likewise, in Klamath Water Users Association,
the D.C. Circuit found no redressability when a

Appendix B-20
plaintiff failed to show that third-party regulatory
decisions responsible for alleged harm were likely to
change as a result of a favorable decision. In that case,
the Klamath Water Users Association sought relief
against the Federal Energy Regulatory Commission
(“FERC”), which had decided not to renew a contract
provision setting low electricity rates for Klamath
Basin irrigators in Oregon and California in FERC’s
lease agreement with PacifiCorp, a power company,
for the Link River Dam. 534 F.3d at 736–38.
Separately, the Oregon Public Utility Commission
and California Public Utilities Commission, which
had “independent authority to fix the rates charged ...
to [their] retail customers,” id. at 736, decided to
charge irrigators in the Klamath Basin “full tariff
rates” rather than the lower rates established in
FERC’s prior contract, Id. at 738. The Circuit held
that the water association “failed to demonstrate
redressability,” id. at 739, because it “offered no
reason to believe that a decision requiring FERC to
include the 1956 contract in PacifiCorp’s annual
licenses would have such an effect on the retail rate
decisions of California and Oregon,” id. at 740. The
court further explained that, when “relief for the
petitioner depends on actions by a third party not
before the court, the petitioner must demonstrate that
a favorable decision would create ‘a significant
increase in the likelihood that the plaintiff would
obtain relief that directly redresses the injury
suffered.’” Id. at 739 (quoting Utah v. Evans, 536 U.S.
452, 464 (2002)). That was not the case in Klamath
Water Users, since the ultimate harm—increased
power costs—was unlikely to be redressed by a

Appendix B-21
favorable decision as to FERC, given Oregon and
California’s independent rate-setting authority.6
In yet another closely analogous case, Ashley v.
U.S. Dep’t of the Interior, 408 F .3d 997 (8th Cir. 2005),
the Eighth Circuit applied this same principle
concerning the lack of redressability when dependent
on a third party’s choices. There, the Sioux tribe
issued bonds and, with government approval,
assigned certain funds received from a federal
development grant to the purchaser of the bonds. Id.
at 999. The plaintiffs challenged the government’s
approval, arguing—as plaintiffs do here, Am. Compl.
¶¶ 44, 46—that the government’s action was ultra
6 The D.C. Circuit recently found that plaintiffs had sufficiently
met the redressability requirement for standing when their
alleged harm was due, in part, to the decision of a third party not
before the court. See Woodhull Freedom Foundation v. United
States, No. 18-5298, 2020 WL 398625, (D.C. Cir. Jan. 24, 2020).
Woodhull confirmed the long-standing redressability standard
that “[w]here the requested relief for the [plaintiff] depends on
actions by a third party not before the court, the plaintiff must
demonstrate that a favorable decision would create a significant
increase in the likelihood that the plaintiff would obtain relief
that directly redresses the injury suffered.” Id. at *6 (internal
quotation marks omitted) (citing Klamath Water Users Ass’n, 534
F.3d at 739)). Applying this standard, the Court found that the
third party in the case—Craigslist—would act differently if the
challenged statute, the Allow States and Victims to Fight Online
Sex Trafficking Act (“FOSTA”), were struck down, citing
evidence that Craigslist had removed the plaintiff’s massage
listings, which caused the complained of harm, to avoid
anticipated liability under FOSTA, and had clearly expressed “its
desire” to restore such listings if legally feasible in the future. See
id. at *6. Woodhull is thus distinguishable from this litigation,
where plaintiffs, as explained above, have failed to demonstrate
that the Klamath Tribes are likely to abandon enforcement of
their senior water rights absent the challenged Protocol
Agreements.

Appendix B-22
vires. Finding that no order in the case “would be
likely to remedy the injuries complained of’ since “the
Tribe is not a defendant and none of the defendants
controls the Tribe’s challenged behaviors,” id. at 999–
1000, the case was dismissed for lack of standing, id.
at 999. The court reasoned that undoing the
government’s approval of the bond issuance would do
nothing “to prevent the Tribe from spending trust
money on a new bond deal of the same sort.” Id. at
1000. “The underlying difficulty for the plaintiffs,” as
in St. John’s United Church, was that “they ‘seek to
change the defendant’s [i.e., the government’s]
behavior only as a means to alter the conduct of a
third party [the Tribe], not before the court, who is the
direct source of the plaintiff[’s] injury.’” Id. at 1003
(alterations in original) (quoting Common Cause v.
Dep’t of Energy, 702 F.2d 245, 251 (D.C. Cir. 1983)).
Here, as in St. John’s United Church, Klamath
Water Users Association, and Ashley, the plaintiffs
challenge government action in order to remedy harm
ultimately caused by enforcement of a third-party’s
senior water rights. Yet the third party, the Klamath
Tribes, are entitled to enforce their senior water
rights, as established in Adair and quantified by the
ACFFOD, regardless of whether the Protocol
Agreements stand. In these circumstances, the
plaintiffs have not shown, as they must, that the
Tribes are likely to abandon enforcement if the
remedy plaintiffs seek—rescission of the challenged
Protocol Agreements, see Am. Compl., Prayer for
Relief—is granted.
Accordingly, this case must be dismissed due to
the plaintiffs’ lack of standing.

Appendix B-23
B. The Plaintiffs’ State-Law Arguments Are
Unavailing
In a last-gasp effort to proceed with this lawsuit,
the plaintiffs argue that another Federal law, plus
Oregon state law and a state administrative decision,
would prevent the Tribes from enforcing their rights
independently. See Pl.’s Opp’n at 8–12. These
arguments are incorrect. Plaintiffs rely first on the
McCarran Amendment, 43 U.S.C. § 666, a federal
statute enacted in 1952 that waives federal sovereign
immunity to allow for “the joinder of the federal
government in state suits for the general adjudication
of all water rights in river systems and for the
administration of the adjudicated rights.” Cohen’s
Handbook at 1242; see also Colo. River Water
Conservation Dist. v. United States, 424 U.S. 800,
802–03 (1976). While the McCarran Amendment’s
sovereign immunity waiver applies to Indian water
rights held in trust by the federal government, see
Colo. River Water, 424 U.S. at 809–12, the Supreme
Court has made clear this law “in no way changes the
substantive law by which Indian rights in state water
adjudications must be judged,” Arizona v. San Carlos
Apache Tribe, 463 U.S. 545, 571 (1983); see also Colo.
River Water, 424 U.S. at 813 (“The Amendment in no
way abridges any substantive claim on behalf of
Indians under the doctrine of reserved rights.”). The
fact that the Klamath Tribes’ reserved rights were
quantified in state proceedings, and are physically
enforced by the state’s water department, does
nothing to alter the substantive rights themselves.
That is to say, the McCarran Amendment does not—
as plaintiffs seem to suggest, see Pl.’s Opp’n at 11–
13—compromise, revise, or otherwise diminish the
Klamath Tribes’ water rights.

Appendix B-24
Plaintiffs rely on two Oregon supreme court cases
to bolster their position, but neither case supports the
proposition that the Klamath Tribes lack the ability to
enforce their water rights absent the Protocol
Agreements. In Fort Vannoy Irr. Dist. v. Water
Resources Com’n, 188 P.3d 277 (Or. 2008), the Oregon
Supreme Court interpreted a state statute, ORS
540.510(1), governing the diversion or transfer of
certificated water use, as part of the determination
whether a private water user could make such a
transfer without the consent of the irrigation district
of which he was a member. The state statute at issue
and the broader question addressed by the court—
“whether the ownership of water rights resides with a
water organization or its members,” see id. at 286—
play no role in the outcome of this case. Fort Vannoy
says nothing about Indian law and tribal water rights,
for which the substantive basis is federal law, not
state law. The Klamath Tribes’ rights important to
this case derive from the Klamath Treaty, not the
doctrine of prior appropriation or, as was dispositive
in Fort Vannoy, “the intent of [the Oregon] legislature
as expressed in the Water Rights Act and the
Irrigation District Law.” Id. at 286–87.
The plaintiffs’ reliance on Klamath Irr. Dist. v.
United States, 227 P.3d 1145 (Or. 2010) (en banc), see
Pls.’ Opp’n at 11, is similarly misplaced because it
deals solely with questions of state law, not with
federal reserved rights. In Klamath Irrigation
District, the Oregon Supreme Court addressed three
questions certified by the Federal Circuit, the second
of which was “whether beneficial use alone is
sufficient to acquire a beneficial or equitable property
interest in a water right to which another person holds
legal title.” Id. at 1160. The state court’s subsequent

Appendix B-25
analysis about how to establish a beneficial use right
through appropriation is not relevant here, since the
Klamath Tribes’ rights are established by treaty, not
by appropriation. Indeed, after the certified state-law
questions had been answered, the Court of Federal
Claims and the Federal Circuit held that the water
rights of the private landowner appellants in the case
“were subordinate to the Tribes’ federal reserved
water rights,” Baley, 942 F.3d at 1341, and that the
“the superior water rights of the Tribes required that
the Bureau [of Reclamation] temporarily halt
deliveries of water to [private landowner] appellants,”
id. at 1331.
Finally, the plaintiffs argue that OWRD
“expressly rejected the Tribes’ attempt to secure legal
title in their own name to a water right,” Pl.’s Opp’n
at 8, by pointing to a 2014 order of determination
issued as part of the Klamath Basin Adjudication, see
Amended Mot. Requesting Judicial Notice, Ex. 4,
Corrected Partial Order of Determination (“Corrected
Partial Order”) (Feb. 28, 2014), ECF No. 21-6. The
order of determination, however, simply does not do
what the plaintiffs say it does. During the
adjudication, the United States filed multiple claims
concerning the “hunting, trapping, fishing and
gathering purposes of the Klamath Treaty of 1864” on
behalf of the tribes. See Corrected Partial Order at 12.
The Tribes then filed an additional claim
“incorporate[ing] the United States’ claims in this case
by reference.” Id. ORWD dismissed this additional
claim, which simply restated by reference the claims
already filed, as “duplicative of the United States’
claims,” id., not because the Tribes lacked authority to
seek enforcement of their rights. In other words, the
order did not “expressly reject[] the Tribes’ attempt to

Appendix B-26
secure legal title in their own name to a water right,”
Pl.’s Opp’n at 8, but merely disregarded a set of
duplicative claims. Plaintiffs’ state-law arguments are
thus entirely unavailing.
The plaintiffs have fallen far short of
demonstrating that the harms they allege are caused
by the challenged Protocol Agreements or would be
redressed by rescission of those agreements, since the
relief they seek, including “prohibiting defendants
from issuing any more calls,” Am. Compl., Prayer for
Relief, ¶ 4, would not stop enforcement of the water
rights held by the Klamath Tribes, a third party not
before the Court. For either of these shortcomings, the
plaintiffs lack standing.
IV. CONCLUSION
For the foregoing reasons, the defendants’ Motion
to Dismiss, ECF No. 17, is granted because the
plaintiffs lack standing. An accompanying Order
consistent with this Memorandum Opinion will be
entered contemporaneously.
Date: January 31, 2020
s/ Beryl A. Howell
BERYL A. HOWELL
Chief Judge

Appendix C-1
United States Court of Appeals
for the District of Columbia Circuit
________
No. 20-5074

September Term, 2020
1:19-cv-01498-BAH
Filed On: May 10, 2021

Gerald H. Hawkins, Individually
and as a trustee of the CN Hawkins
Trust and Gerald H. Hawkins and
Carol H. Hawkins Trust, et al.,
Appellants
v.
Debra A. Haaland, Secretary of
the Interior, et al.,
Appellees
BEFORE: Rogers, Katsas, and Rao, Circuit
Judges
ORDER
Upon consideration of appellants’ petition for
panel rehearing filed on May 3, 2021, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

Appendix D-1
U.S. Const. art. I, § 1
Section 1. Legislative Power Vested in Congress
All legislative Powers herein granted shall be
vested in a Congress of the United States, which shall
consist of a Senate and House of Representatives.

Appendix E-1
TREATY WITH THE KLAMATH, ETC., 1864.
16 Stat. 707 (Oct. 14, 1864)
Treaty between the United States of America and the
Klamath and Moadoc Tribes and Yahooskin Band of
Snake Indians: Concluded, October 14, 1864;
Ratification advised, with Amendments, July 2, 1866;
Amendments assented to, December 10, 1869;
Proclaimed, February 17, 1870.
ULYSSES S. GRANT,
President of the United States of America
TO ALL AND SINGULAR TO WHOM THESE PRESENTS SHALL
COME, GREETING:

WHEREAS a treaty was made and
concluded at Klamath lake, in the
Preamble
State of Oregon, on the fourteenth
day of October, in the year of our
Lord one thousand eight hundred
and sixty-four, by and between J. W.
Perit Huntington and William
Logan, commissioners on the part of
the United States, and La-Lake,
Contracting
Chil-o-que-nas, and other chiefs and
parties.
headmen of the Klamath tribe of
Indians; Schon-chin, Stak-it-ut, and
other chiefs and headmen of the
Moadoc tribe of Indians, and Kile-toak and Sky-te-ock-et, chiefs and
headmen of the Yahooskin band of
Snake Indians, respectively, on the
part of said tribes and band of
Indians, and duly authorized thereto

Appendix E-2
by them, which treaty is in the words
and figures following, to wit:
Articles of agreement and
convention made and concluded at
Klamath Lake, Oregon, on the
fourteenth day of October, A. D. one
thousand eight hundred and sixtyfour, by J. W. Perit Huntington,
superintendent of Indian affairs in
Oregon, and William Logan, United
States Indian agent for Oregon, on
the part of the United States, and the
chiefs and headmen of the Klamath
and Moadoc tribes, and Yahooskin
band of Snake Indians, hereinafter
named, to wit: La-Lake, Chil-o-quenas, Kellogue, Mo-ghen-kas-kit,
Blow, Le-lu, Palmer, Jack, Que-as,
Poo-sak-sult, Che-mult, No-ak-sum,
Mooch-kat-allick,
Toon-tuck-te,
Boos-ki-you, Ski-a-tic, Shol-las-loos,
Ta-tet-pas, Muk-has, Herman-koosmam, chiefs and headmen of the
Klamaths, Schon-chin, Stat-it-ut,
Keint-poos, Chuck-e-i-ox, chiefs and
headmen of the Moadocs, and Kile-toak and Sky-te-ock-et, chiefs of the
Yahooskin band of Snakes.
ARTICLE I. The tribes of Indians
aforesaid cede to the United States
all their right, title, and claim to all
the country claimed by them, the
same being determined by the
following
boundaries,
to
wit:

Cession of
lands to the
United
States.

Appendix E-3
Beginning at the point where the Boundaries.
forty-fourth parallel of north latitude
crosses the summit of the Cascade
mountains; thence following the
main dividing ridge of said
mountains in a southerly direction to
the ridge which separates the waters
of Pitt and McCloud Rivers from the
waters on the north; thence along
said dividing ridge in an easterly
direction to the southern end of
Goose lake; thence northeasterly to
the northern end of Harney lake;
thence due north to the forty-fourth Reservation.
parallel of north latitude; thence
west to the place of beginning:
Provided, That the followingdescribed tract, within the country
ceded by this treaty, shall, until
otherwise directed by the President
of the United States, be set apart as
a residence for said Indians, [and]
held and regarded as an Indian
reservation, to wit: Beginning upon
the eastern shore of the middle Boundaries.
Klamath lake, at the Point of Rocks,
about twelve miles below the mouth
of
Williamson’s
river;
thence
following up said eastern shore to the
mouth of Wood river; thence up Wood
river to a point one mile north of the
bridge at Fort Klamath; thence due
east to the summit of the ridge which
divides the upper and middle
Klamath lakes; thence along said

Appendix E-4
ridge to a point due east of the north
end of the upper lake; thence due
east, passing the said north end of
the upper lake, to the summit of the
mountains on the east side of the
lake; thence along said mountain to
the point where Sprague’s river is
intersected by the Ish-tish-ea-wax
creek; thence in a southerly direction
to the summit of the mountain, the
extremity of which forms the Point of
Rocks; thence along said mountain to
the place of beginning. And the tribes
aforesaid agree and bind themselves
that,
immediately
after
the
ratification of this treaty, they will
remove to said reservation and
remain thereon, unless temporary
leave of absence be granted to them
by the superintendent or agent
having charge of the tribes.
It is further stipulated and
agreed that no white person shall be
permitted to locate or remain upon
the reservation, except the Indian
superintendent
and
agent,
employees of the Indian department,
and officers of the Army of the United
States, guaranteed [and] that in case
persons other than those specified
are found upon the reservation, they
shall be immediately expelled
therefrom; and the exclusive right of
taking fish in the streams and lakes,
included in said reservation, and of

Indians to
remove to,
and live
upon the
reservation.

White
persons not
to remain
on
reservation;
Post, p. 711.

nor fish, &c.

Appendix E-5
gathering edible roots, seeds, and
berries within its limits, is hereby
secured to the Indians aforesaid:
Provided, also, That the right of way
for public roads and railroads across
said reservation is guaranteed
[reserved] to citizens of the United
States.
ARTICLE II. In consideration of,
and in payment for the country ceded
by this treaty, the United States
agree to pay to the tribes conveying
the same the several sums of money
hereinafter enumerated, to wit:
Eight thousand dollars per annum
for a period of five years, commencing
on the first day of October, eighteen
hundred and sixty-five, or as soon
thereafter as this treaty may be
ratified; five thousand dollars per
annum for the term of five years next
succeeding the first period of five
years; and three thousand dollars per
annum for the term of five years next
succeeding the second period; all of
which several sums shall be applied
to the use and benefit of said Indians
by the superintendent or agent
having charge of the tribes, under the
direction of the President of the
United States, who shall, from time
to time, in his discretion, determine
for what objects the same shall be
expended, so as to carry out the
design of the expenditure, [it] being

Right of
way for
railroads.
Post, p. 711.
Payments
by the
United
States;

how to be
expended.

Appendix E-6
to promote the well-being ‘of’ the
Indians,
advance
them
in
civilization,
and
especially
agriculture, and to secure their moral
improvement and education.
ARTICLE III. The United States
agree to pay said Indians the
additional
sum
of
thirty-five
thousand dollars, a portion whereof
shall be used to pay for such articles
as may be advanced to them at the
time of signing this treaty, and the
remainder shall be applied to
subsisting the Indians during the
first year after their removal to the
reservation, the purchase of teams,
farming implements, tools, seeds,
clothing, and provisions, and for the
payment of the necessary employees.

Additional
payment,
and for
what
purposes.

ARTICLE IV. The United States
further agree that there shall be
erected at suitable points on the
reservation, as soon as practicable
after the ratification of this treaty,
one saw-mill, one flouring-mill,
suitable buildings for the use of the
blacksmith, carpenter, and wagon
and plough maker, the necessary
buildings for one manual-labor
school, and such hospital buildings as
may be necessary, which buildings
shall be kept in repair at the expense
of the United States for the term of
twenty years; and it is further

Mills and
shops to be
erected.

Schoolhouse and
hospital.

Appendix E-7
stipulated that the necessary tools
and material for the saw-mill, flour- Tools,
mill, carpenter, blacksmith, and books, and
wagon and plough maker’s shops, stationary.
and books and stationery for the
manual-labor school, shall be
furnished by the United States for
the period of twenty years.
ARTICLE V. The United States
further engage to furnish and pay for
the services and subsistence, for the
term of fifteen years, of one
superintendent
of
farming
operations,
one
farmer,
one
blacksmith,
one
sawyer,
one
carpenter, and one wagon and plough
maker, and for the term of twenty
years of one physician, one miller,
and two school-teachers.
ARTICLE VI. The United States
may, in their discretion, cause a part
or the whole of the reservation
provided for in Article I to be
surveyed into tracts and assigned to
members of the tribes of Indians,
parties to this treaty, or such of them
as may appear likely to be benefited
by the same, under the following
restrictions and limitations, to wit:
To each head of a family shall be
assigned and granted a tract of not
less than forty nor more than one
hundred and twenty acres, according
to the number of persons in such

Farmer,
mechanics,
and
teachers.

Reservation
may be
surveyed
into tracts,
and
assigned to
heads of
families and
single
persons;

Appendix E-8
family; and to each single man above
the age of twenty-one years a tract
not exceeding forty acres. The
Indians to whom these tracts are
granted
are
guaranteed
the
perpetual possession and use of the
tracts thus granted and of the
improvements which may be placed
thereon; but no Indian shall have the
right to alienate or convey any such
tract to any person whatsoever, and
the same shall be forever exempt
from levy, sale, or forfeiture:
Provided, That the Congress of the
United States may hereafter abolish
these restrictions and permit the sale
of the lands so assigned, if the
prosperity of the Indians will be
advanced thereby: And provided
further, If any Indian, to whom an
assignment of land has been made,
shall refuse to reside upon the tract
so assigned for a period of two years,
his right to the same shall be deemed
forfeited.

not to be
alienated,
nor subject
to levy, &c.
Restrictions
may be
removed.

Forfeiture.

ARTICLE VII. The President of
the United States is empowered to Regulations
declare such rules and regulations as as to
will secure to the family, in case of successions.
the death of the head thereof, the use
and possession of the tract assigned
to him, with the improvements
thereon.

Appendix E-9
ARTICLE VIII. The annuities of Annuities
the tribes mentioned in this treaty not liable
shall not be held liable or taken to for debts.
pay the debts of individuals.
ARTICLE IX. The several tribes of Peace and
Indians, parties to this treaty,
friendship.
acknowledge their dependence upon
the government of the United States,
and agree to be friendly with all
citizens thereof, and to commit no
depredations upon the person or
property of said citizens, and to
refrain from carrying on any war
upon other Indian tribes; and they
further agree that they will not
communicate with or assist any
persons or nation hostile to the
United States, and, further, that they
will submit to and obey all laws and
regulations which the United States
may prescribe for their government
and conduct.
ARTICLE X. It is hereby provided
that if any member of these tribes
shall drink any spirituous liquor, or
bring any such liquor upon the
reservation, his or her proportion of
the benefits of this treaty may be
withheld for such time as the
President of the United States may
direct.

Members
drinking,
&c.
spiritous
liquors, not
to have the
benefits of
this treaty.

ARTICLE XI. It is agreed between
the contracting parties that if the Other tribes
United States, at any future time, may be

Appendix E-10
may desire to locate other tribes upon located on
the reservation provided for in this reservation.
treaty, no objection shall be made
thereto; but the tribes, parties to this
treaty, shall not, by such location of
other tribes, forfeit any of their rights Proviso.
or privileges guaranteed to them by
this treaty.
ARTICLE XII. This treaty shall
bind
the
contracting
parties Treaty
whenever the same is ratified by the when to
Senate and President of the United take effect.
States.
In witness of which, the several Execution.
parties named in the foregoing treaty
have hereunto set their hands and
seals at the place and date above
written.
J. W. PERIT HUNTINGTON,
Supt. Indian Affairs.
WILLIAM LOGAN,
U. S. Indian Agt.
LA-LAKE,
CHIL-O-QUE-NAS,
KELLOGUE,
MO-GHEN-KAS-KIT,
BLOW,
LE-LU,
PALMER,
JACK,
QUE-ASS,
POO-SAK-SULT,
CHE-MULT,

his x mark.
his x mark.
his x mark.
his x mark.
his x mark.
his x mark.
his x mark.
his x mark.
his x mark
his x mark.
his x mark.

[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]

Appendix E-11
NO-AK-SUM,
MOOCH-KAT-ALLICK,
TOON-TUC-TEE,
BOSS-KI-YOU,
SKI-AT-TIC,
SHOL-LAL-LOOS,
TAT-TET-PAS,
MUK-HAS,
HERMAN-KUS-MAM,
JACKSON,

his x mark.
his x mark.
his x mark.
his x mark.
his x mark.
his x mark.
his x mark.
his x mark.
his x mark.
his x mark.

[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]

SCHON-CHIN,
STAK-IT-UT,
KEINT-POOS,
CHUCK-E-I-OX,

his x mark.
his x mark.
his x mark.
his x mark.

[SEAL.]
[SEAL.]
[SEAL.]
[SEAL.]

KILE-TO-AK,
SKY-TE-OCK-ET,

his x mark.
his x mark.

[SEAL.]
[SEAL.]

Signed in the presence of—
R. P. EARHART, Secretary.
WM. KELLY,
Capt. 1st Cav., Oregon Volunteers.
JAMES HALLORAN,
2d Lieut. 1st Inf., W. T. Vols.
WILLIAM C. MCKAY, M. D.
his
ROBERT (his x mark) BIDDLE.
mark.

Appendix F-1
25 U.S.C. § 2
§ 2. Duties of Commissioner
The Commissioner of Indian Affairs shall, under
the direction of the Secretary of the Interior, and
agreeably to such regulations as the President may
prescribe, have the management of all Indian affairs
and of all matters arising out of Indian relations.

Appendix G-1
42 U.S.C. § 4332(C)
§ 4332. Cooperation of agencies; reports; availability
of information; recommendations; international and
national coordination of efforts
The Congress authorizes and directs that, to the
fullest extent possible: (1) the policies, regulations,
and public laws of the United States shall be
interpreted and administered in accordance with the
policies set forth in this chapter, and (2) all agencies
of the Federal Government shall—
*

*

*

*

*

(C) include in every recommendation or report on
proposals for legislation and other major Federal
actions significantly affecting the quality of the
human environment, a detailed statement by the
responsible official on-(i) the environmental impact of the proposed
action,
(ii) any adverse environmental effects which
cannot be avoided should the proposal be
implemented,
(iii) alternatives to the proposed action,
(iv) the relationship between local short-term
uses of man's environment and the maintenance and
enhancement of long-term productivity, and
(v) any
irreversible
and
irretrievable
commitments of resources which would be involved in
the proposed action should it be implemented.
Prior to making any detailed statement, the
responsible Federal official shall consult with and
obtain the comments of any Federal agency which has

Appendix G-2
jurisdiction by law or special expertise with respect to
any environmental impact involved. Copies of such
statement and the comments and views of the
appropriate Federal, State, and local agencies, which
are authorized to develop and enforce environmental
standards, shall be made available to the President,
the Council on Environmental Quality and to the
public as provided by section 552 of Title 5, and shall
accompany the proposal through the existing agency
review processes[.]

Appendix H-1
43 U.S.C. § 1457(10)
§ 1457. Duties of Secretary
The Secretary of the Interior is charged with the
supervision of public business relating to the following
subjects and agencies:
*
10. Indians.

*

*

*

*

Appendix I-1
Dated May 30, 2013
Protocol Agreement between
The Klamath Tribes and
the Bureau of Indian Affairs
The following Agreement is entered into on the date of
the last signature hereto by The Klamath Tribes (the
Tribes) and the United States Bureau of Indian
Affairs (the BIA), herein collectively called “the
Parties.”
WHEREAS, the Tribes and the BIA are claimants in
the Klamath Basin Adjudication (KBA) initially
conducted by the Oregon Water Resources
Department (OWRD), and now before the Klamath
County Circuit Court, and
WHEREAS, certain water rights of the Tribes and of
the BIA as trustee for the benefit of the Tribes
(collectively, the Tribal water rights), were confirmed
and upheld in OWRD’s Final Order of Determination
in the KBA filed with the Klamath County Circuit
Court on March 7, 2013, and
WHEREAS, such water rights are enforceable as of
the date of that filing, so that “calls” for water to
satisfy the Tribal water rights and calls for
enforcement can be made, and
WHEREAS, the Parties desire to position themselves
to make such calls in a timely and effective manner,
after consultation with each other, and the Parties are
mindful of OWRD’s desire for the Parties to have a
point of contact to make calls for the Parties;

Appendix I-2
NOW, THEREFORE, the Parties agree as follows:
1. The Tribes will be the entity that generally
contacts OWRD to make calls for enforcement of the
Tribal water rights. The Tribes designate the Director
of the Natural Resources Department to be the point
of contact to make calls to OWRD:
Will Hatcher, 541-783-2219, ext. 112,
will.hatcher@klamathtribes.com, or,
alternatively, the Tribes’ Water Management
Liaison, Larry Dunsmoor, 541-783-2149, ext. 21,
lkdunsmoor@aol.com
The Tribes will notify OWRD and the BIA of any
changes to this designation.
2. Prior to making a call to OWRD, the Tribes will
provide two business days’ notice to the BIA by email
and telephone to the BIA call representative
designated below, with a copy of the email notice to
BIA’s Solicitor’s Office attorney and BIA designees
listed under “copy to” below. Such call notice will
include the reasons for making such a call, including:
the Tribal water right not being met, the water source
and amount for the call, and an assessment based on
the Tribes’ information and belief that water is
currently being diverted from the source at issue and
that a call would provide water for the Tribal water
right. Upon mutual agreement the Tribes and the BIA
may consent in writing to a shorter time period for a
specific notice of a call.
The Parties’ respective call representatives for the call
notice will be:
For the Klamath Tribes:
Will Hatcher, Director of Natural Resources

Appendix I-3
(541) 783-2219, ext. 112
will.hatcher@klamathtribes.com
copy to: Larry Dunsmoor, Water
Management Liaison,
lkdunsmoor@aol.com
For the Bureau of Indian Affairs:
Deputy Regional Director for Indian Services,
Scott Aikin
(503) 231-6705
scott.aikin@bia.gov
copy to: Bodie Shaw, Deputy Regional
Director for Trust Services,
bodie.shaw@bia.gov
Michael Dammarell, Water Rights
Specialist,
michael.dammarell@bia.gov
Barbara Scott-Brier, attorney, Office
of the Solicitor PNWR,
ssbrier@corncast.net
If a Party’s call representative is out of the office for
more than a day, the following will serve as the Party’s
acting “call representative” during the call
representative’s absence:
For the Klamath Tribes:
Larry Dunsmoor, Water Management Liaison
(541) 783-2149, ext. 21
lkdunsmoor@aol.com
copy to: Don Gentry, Chairman,
don.gentry@klamathtribes.com
Kathleen Mitchell, General
Manager, Kathleen.mitchell@
klamathtribes.com

Appendix I-4
For the Bureau of Indian Affairs:
Bodie Shaw, Deputy Regional Director for
Trust Services
(503) 231 -6705
bodie.shaw@bia.gov
copy to: Michael Dammarell, Water Rights
Specialist,
michael.dammarell@bia.gov
Barbara Scott-Brier, attorney,
Office of the Solicitor PNWR,
ssbrier@comcast.net
The Parties will notify the Tribal Chairman and the
BIA Regional Director, at the addresses in the
signature blocks below, of any changes in their call
representative or acting call representative.
3. The BIA call representative will timely provide an
email response to the call notice stating either
(i) agreement with making the proposed call,
(ii) changes to the scope of the proposed call,
(iii) disagreement with making the proposed call and
the reasons for that disagreement, or (iv) that BIA
needs an additional business day to complete
deliberations on the call notice.
4. If after reviewing BIA’s response under parts (ii)
or (iii) of paragraph 3, the Tribes continue to believe
the proposed call is necessary, the Tribal Chairman
will initiate discussion of the matter with the BIA
Regional Director in an attempt to resolve the
disagreement and will refrain from pursuing the call
without the BIA’s agreement while such discussions
are ongoing. Such discussions must conclude or be
deemed concluded within two business days of the
Tribal Chairman’s initiating the discussion.

Appendix I-5
5. If in the absence of an expression of such from the
Tribes the BIA believes a call should be made for the
Tribes' benefit for the protection of the Tribes’ treaty
resources or protection of the Tribal water rights, the
BIA will follow the same general procedures described
above in paragraphs 2-4 and will refrain from
pursuing the call without the Tribes’ agreement while
discussions to resolve any disagreement regarding the
proposed call are ongoing. The BIA designates the
Deputy Regional Director for Indian Services to be the
point of contact to make calls to OWRD:
Scott Aikin, (503) 231-6705, scott.aikin@bia.gov,
or, alternatively, the Deputy Regional Director
for Trust Services, Bodie Shaw, (503) 231-6705,
bodie.shaw@bia.gov.
The BIA will notify OWRD and the Tribes of any
changes to this designation.
6. Failure to respond within two business days (i) to
a notice for a call as provided in paragraphs 3 and 5,
or (ii) to an initiation of discussions as provided in
paragraph 4, constitutes consent to making the call.
7. Each Party retains its independent right to make
a call: if after following the procedures as described in
paragraphs 2-5, the Parties cannot agree on whether
to make a call, either Party may independently make
a call and the other will not object to the call.
8. All calls on water rights made to OWRD will be
made in writing delivered by any means (hand, fax, email, first class mail) with a copy to the other Party’s
call representative and BIA’s Solicitor’s Office
attorney at the email addresses indicated in
paragraph 2.

Appendix I-6
9. The Parties may modify this Agreement upon
mutual
agreement,
including,
for
example,
modification based on any change in ownership of the
Tribal water rights designated in the final court
decree, by execution of a written modification.
10. This Agreement will remain in effect until
terminated by either Party on 30 days’ written notice
to the other Party.
IN WITNESS WHEREOF the Parties have hereunto
set their hands on the dates shown.
FOR THE KLAMATH
TRIBES

FOR THE BUREAU OF
INDIAN AFFAIRS

/s/ Don Gentry
Chairman
The Klamath Tribes
PO BOX 436
501 Chiloquin Blvd
Chiloquin, OR 97624

/s/ Stanley Speaks
Regional Director
Bureau of Indian Affairs
Northwest Regional Office
911 NE 11th Avenue
Portland, OR 97232-4169

5/24/2013
Date

5/30/2013
Date

Appendix J-1
Dated Mar. 7, 2019
Protocol Agreement between
The Klamath Tribes and
the Bureau of Indian Affairs
The following Agreement is entered into on the date of
the last signature hereto by The Klamath Tribes (the
Tribes) and the United States Bureau of Indian
Affairs (the BIA), herein collectively called “the
Parties.”
WHEREAS, the Tribes and the BIA are claimants in
the Klamath Basin Adjudication (KBA), initially
conducted by the Oregon Water Resources
Department (OWRD), and now before the Klamath
County Circuit Court; and
WHEREAS, water rights claims were filed by both the
Tribes and the United States on behalf of and in trust
for the Tribes (Tribal water rights), and some of those
claims were recognized and determined in OWRD’s
Amended and Corrected Findings of Facts and Order
of Determination (ACFFOD) in the KBA, dated
February 28, 2014, and originally filed with the
Klamath County Circuit Court on March 7, 2013; and
WHEREAS, such determined water rights claims are
enforceable as of the date of the March 7, 2013, filing,
such that calls for water to satisfy the Tribal water
rights and calls for enforcement can be made; and
WHEREAS, the Parties desire to position themselves
to make such calls in a timely and effective manner,
after consultation with each other, and the Parties are
mindful of OWRD’s desire for the Parties to have
designated points of contact responsible for making
calls on behalf of the Parties; and

Appendix J-2
WHEREAS, the Parties have confirmed with OWRD
that calls are now generally to be made on a
“standing” basis, with one for the irrigation season
(beginning on or about March 1) and one for the nonirrigation season (beginning on or about November 1),
thereby enabling OWRD to more consistently monitor,
observe, and, when necessary, regulate junior water
users in response to the standing calls (hereafter
referred to as a “standing call”);
WHEREAS, the Parties originally signed this
Agreement on May 30, 2013, and are amending it to
revise some of the procedures, including giving the
BIA more time to respond to call notices from the
Tribes;
NOW, THEREFORE, the Parties agree as follows:
1. Unless the BIA decides to make a unilateral call
pursuant to paragraph 5, the Tribes will be the entity
that contacts OWRD to make calls for enforcement of
the Tribal water rights. The Tribes designate the
Water Rights Specialist of the Natural Resources
Department’s Aquatics Program to be the point of
contact to make calls to OWRD:
Bradley Parrish, 541-783-2219, ext. 234,
bradley.parrish@klamathtribes.com
or alternatively, the Aquatics Supervisor,
Stanley Swerdloff, 541-783-2219, ext. 222,
stan.swerdloff@klamathtribes.com.
The Tribes will notify OWRD and the BIA of any
changes to this designation.
2. Prior to making a standing call to OWRD, the
Tribes will provide seven business days’ notice to the
BIA by both sending an email to and having a

Appendix J-3
telephone conversation with the BIA call
representative designated below, with copies of the
email notice sent to BIA's Solicitor’s Office attorney
and BIA designees listed under “copy to” below. Such
call notice will include a list of the Tribal water rights
and amounts that the Tribes seek to have OWRD
regulate for during the respective season. This call
notice has historically been in the form of a written
draft call to OWRD and the Parties agree that this is
an acceptable form of call notice.
3. The Tribes and the BIA also agree that for a call
other than a standing call, the Tribes will provide
three business days' notice to the BIA by both sending
an email to and having a telephone conversation with
the BIA call representative designated below, with
copies of the email notice sent to BIA’s Solicitor’s
Office attorney and BIA designees listed under “copy
to” below. For purposes of this Agreement, a “call
other than a standing call” is a call that is made in
response to the Tribes’ or BIA’s desire to make
changes to a standing call, based on hydrologic
conditions or a desire to otherwise alter a standing
call. A call other than a standing call notice will
include the reasons for making the call, including the
reason the party wishes to alter a standing call and if
applicable: the Tribal water right(s) not being met, the
water source(s) and amount(s) for the call, and an
assessment based on the Tribes’ information and
belief that water is currently being diverted from the
source(s) at issue and that a call would provide water
for the unmet Tribal water right(s).
4. For purposes of computing the notice time period
for both a standing call and a call other than a
standing call, day one of the notice period is the first

Appendix J-4
business day after the Tribes have provided both the
e-mail and telephone conversation required by
paragraph 3.
5. Upon mutual agreement, the Tribes and the BIA
may consent in writing to a shorter time period for the
notice of a specific call.
6. The Parties’ respective call representatives for the
call notice will be:
For the Klamath Tribes:
Bradley Parrish, Water Rights Specialist of
Natural Resources’ Aquatics Program
(541) 783-2219, ext. 234;
bradley.parrish@klamathtribes.com
copy to: Stanley Swerdloff, Aquatics
Supervisor,
stan.swerdloff@klamathtribes.com
For the Bureau of Indian Affairs:
Deputy Regional Director for Trust Services
Bodie Shaw, (503) 231-6705,
bodie.shaw@bia.gov
copy to: Deputy Regional Director for Indian
Services, Twyla Stange,
twyla.stange@bia.gov retired
Michael Dammarell, Water Rights
Specialist,
michael.dammarell@bia.gov
Michael Schoessler, Attorney, Office
of the Solicitor PNWR,
michael.schoessler@sol.doi.gov

Appendix J-5
If a Party’s call representative is out of the office for
more than a day, the following will serve as the Party’s
acting call representative during the call
representative’s absence:
For the Klamath Tribes:
Stanley Swerdloff, Aquatics Supervisor
(541) 783-2219, ext. 222
stan.swerdloff@klamathtribes.com, or
alternatively,
Mark Buettner, Environmental
Scientist
(541) 783-2219, ext. 227,
mark.buettner@klamathtribes.com
copy to: Don Gentry, Chairman,
don.gentry@klamathtribes.com
George Lopez, General Manager,
george.lopez@klamathtribes.com
Will Hatcher, Natural Resources
Director,
will.hatcher@klamathtribes.com
For the Bureau of Indian Affairs:
Deputy Regional Director for Indian Services
Twyla Stange, (503) 231-6705,
twyla.stange@bia.gov retired
or alternatively, the Natural Resource
Officer,
David Redhorse, (503) 231-6883,
david.redhorse@bia.gov retired

Appendix J-6
copy to: Michael Dammarell, Water Rights
Specialist,
michael.dammarell@bia.gov
Michael Schoessler, Attorney, Office of
the Solicitor PNWR,
michael.schoessler@sol.doi.gov
7. The Parties will notify in writing the Tribal
Chairman and the BIA Regional Director, at the
addresses in the signature blocks below, of any
changes in their call representative or acting call
representative. It is each Party’s responsibility to
ensure that an acting call representative is available
to receive the e-mail and telephone notice when the
primary representative is out of the office.
8. The BIA call representative will timely provide an
email response acknowledging the call notice. Within
seven business days for standing calls and three
business days for calls other than a standing call, the
BIA call representative will provide an email response
stating either (i) agreement with making the proposed
call, (ii) changes to the scope of the proposed call, or
(iii) disagreement with making the proposed call and
the reasons for that disagreement.
9. If after reviewing BIA’s response under parts (ii)
or (iii) of paragraph 8, the Tribes continue to believe
the proposed call is necessary, the Tribal Chairman
will initiate discussion of the matter with the BIA
Regional Director in an attempt to resolve the
disagreement and will refrain from pursuing the call
without the BIA’s concurrence while such discussions
are ongoing. Such discussions must conclude or be
deemed concluded no later than two business days
after the Tribal Chairman’s initiation of discussion.

Appendix J-7
10. If, in the absence of a call notice from the Tribes,
the BIA believes a can should be made for the
protection of the Tribes’ treaty resources or protection
of the Tribal water rights, the BIA will follow the same
procedures described above in paragraphs 2-9 and will
refrain from pursuing the call without the Tribes’
concurrence while discussions to resolve any
disagreement regarding the proposed call are ongoing.
The BIA designates the Deputy Regional Director for
Trust Services to be the point of contact to make calls
to OWRD:
Bodie Shaw, (503) 231-6705,
bodie.shaw@bia.gov
or, alternatively, the Deputy Regional
Director for Indian Services,
Twyla Stange, (503) 231-6705,
twyla.stange@bia.gov retired
The BIA will notify OWRD and the Tribes of any
changes to this designation.
11. Failure to respond (i) within seven business days
to a notice for a standing call or three business days
to a notice for a call other than a standing call as
provided in paragraphs 8 and 10, or (ii) to an initiation
of discussions as provided in paragraph 9, constitutes
consent to making the call.
12. Each Party retains its independent right to make
a call. If after following the procedures as described in
paragraphs 2-10, the Parties cannot agree on whether
to make a call, either Party may independently make
a call and the other party will not withhold any
required concurrence or object to the call, except for
the following: the United States retains the right not

Appendix J-8
to concur with any call for water that is inconsistent
with the ACFFOD or other legal obligations.
13. All calls on Tribal water rights made to OWRD
will be made in writing delivered by any means (hand,
fax, e-mail, first class mail) with a copy to the other
Party’s call representative and BIA’s Solicitor’s Office
attorney at the email addresses indicated in
paragraph 6.
14. The Parties may modify this Agreement upon
mutual
agreement,
including,
for
example,
modification based on any change in ownership of the
Tribal water rights designated in the final court
decree, or by execution of a written modification.
15. This Agreement will remain in effect until
terminated by either Party, which shall require 30
days’ written notice to the other Party before the
termination may take effect. The Parties agree to
meet and confer in good faith during that 30 day
period to attempt to address and remediate the
issue(s) giving rise to the termination notice.
IN WITNESS WHEREOF the Parties have hereunto
set their hands on the dates shown.
FOR THE KLAMATH
TRIBES

FOR THE BUREAU OF
INDIAN AFFAIRS

/s/ Don Gentry
Chairman
The Klamath Tribes
PO BOX 436
501 Chiloquin Blvd
Chiloquin, OR 97624

/s/
Regional Director
Bureau of Indian Affairs
Northwest Regional Office
911 NE 11th Avenue
Portland, OR 97232-4169

11/14/2018
Date

3/7/2019
Date

Appendix K-1
Filed Aug. 7, 2019
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)
)
)
)
)
)
* * * * *
)
Plaintiffs,
)
v.
)
)
DAVID L. BERNHARDT,
)
Secretary of the Interior,
)
* * * * *
)
Defendants. )

GERALD H. HAWKINS,
individually and as trustee of
the CN Hawkins Trust and
Gerald H. Hawkins and
Carol H. Hawkins Trust,

Civil No. 1:19cv-01498-BAH
Action for
Declaratory
and Injunctive
Relief (Administrative
Procedure Act,
5 U.S.C.
§§ 701-706)
AMENDED
COMPLAINT

AMENDED COMPLAINT
For their complaint, plaintiffs allege as follows:
INTRODUCTION
1. This is an action against the Hon. David L.
Bernhardt, in his official capacity as Secretary of the
Interior, Tar Katuk Mac Lean Sweeney, in her official
capacity as the Assistant Secretary—Indian Affairs,
Darryl LaCounte, in his official capacity as Director of
the Bureau of Indian Affairs (BIA), and Bryan
Mercier, in his official capacity as Regional Director
for the Northwest Region of the BIA, for declaratory
and injunctive relief from final agency action that is
ultra vires, as well as in violation of the National
Environmental Policy Act (NEPA), 42 U.S.C. §§ 4321-

Appendix K-2
4347. Specifically, this action challenges decisions by
defendants to authorize the execution and
implementation
of
an
agreement
(Protocol
Agreement) with the Klamath Tribes, signed on
May 30, 2013. The Protocol Agreement unlawfully
delegates to the Klamath Tribes authority to issue
“calls” for state enforcement of instream water rights
held by the United States, as trustee for the Klamath
Tribes, for streams in the Upper Klamath Basin in
Klamath County, Oregon. This action also challenges
defendants’ connected final decisions to concur with,
or accede to, such calls made under the Protocol
Agreement without first evaluating the effects to the
human environment, and considering alternatives to
the resulting widespread irrigation shut-offs against
plaintiffs and the entire Upper Basin community, in
accordance with NEPA. Plaintiffs seek declaratory
and injunctive relief declaring the Protocol Agreement
unlawful, declaring each of the calls issued in 2013
and 2017 through 2019 unlawful, setting aside and
vacating each of those decisions, and enjoining
defendants from making any further calls for
enforcement of the United States’ instream water
rights unless and until defendants have complied with
NEPA and have determined that any such calls are in
the general public interest and would further the
general welfare of the Nation.
JURISDICTION AND VENUE
2. This Court has jurisdiction over this action
pursuant to 28 U.S.C. § 1331 (federal question), § 2201
(declaratory relief) and § 2202 (injunctive relief).
Plaintiffs have challenged final agency actions as
defined by the Administrative Procedure Act (APA), 5
U.S.C. § 704. Venue in this district is proper under 28

Appendix K-3
U.S.C. § 1391(e) because a substantial part of the
events or omissions giving rise to the claims occurred
in this district, and/or defendants Bernhardt,
Sweeney and LaCounte reside in this district. This
action is timely under 28 U.S.C. § 2401(a)(1) because
the Protocol Agreement was executed on May 30, 2013
and defendants have subsequently concurred with, or
acceded to, calls issued by the Klamath Tribes for
enforcement of instream water rights held by the
United States in each year since the Protocol
Agreement was executed.
PARTIES
Wood River Landowners
3. Plaintiffs Gerald B. Hawkins, individually
and as a trustee of the CN Hawkins Trust and
Gerald H. Hawkins and Carol H. Hawkins Trust;
John B. Owens, as a trustee of the John and Candace
Owens Family Trust; Harlowe Ranch, LLC, an Oregon
limited liability company; Goose Nest Ranches, LLC,
an Oregon limited liability company; Agri Water,
LLC, an Oregon limited liability company; NBCC,
LLC, an Oregon limited liability company; Roger
Nicholson; Nicholson Investments, LLC, an Oregon
limited liability company; Mary Nicholson, as trustee
of the Nicholson Loving Trust; Martin Nicholson,
individually and as co-trustee of the Nicholson Loving
Trust; Rascal Ranch, LLC, an Oregon limited liability
company; JaCox Ranch, LLC, an Oregon limited
liability company; and E. Martin Kerns (collectively,
Wood River Landowners) are the owners of thousands
of acres of real property in the Wood River Valley in

Appendix K-4
Klamath County, Oregon. They1 use and enjoy their
ranches for multiple purposes including, but not
limited to: cattle ranching, growing pasture grasses,
recreation, observing and experiencing wildlife,
boating, fishing, and hunting. Wood River
Landowners’ ability to use and enjoy their properties
is dependent on having access to water for irrigation.
4. Wood River Landowners’ properties have
appurtenant water rights that allow for the diversion
of water from the Wood River and/or its tributaries
Fort Creek, Crooked Creek, Annie Creek, and Sun
Creek for the purpose of irrigation and stock watering.
Wood River Landowners use the water to irrigate
their pastures for growing grass to feed cattle. Wildlife
such as waterfowl, migratory birds (such as red-tailed
hawks, owls and bald eagles), amphibians, reptiles,
deer and elk depend on Wood River Landowners’
irrigated pastures for habitat, refuge, and feed. Wood
River Landowners enjoy observing and experiencing
wildlife on their private property.
5. Some Wood River Landowners’ water rights
have been provisionally recognized in the Klamath
Basin Adjudication as having a priority date of 1864,
originating under the Klamath Treaty. 16 Stat. 707.
Some of Wood River Landowners’ ranches were
formerly part of the Agency Unit of the Klamath
Indian Irrigation Project that was funded and
developed by the U.S. Indian Irrigation Service
commencing in 1900. Other Wood River Landowners
hold water rights that were adjudicated in a prior
state adjudication of the Wood River, with pre-1909
1 For corporate entities, references to Wood River Landowners’
use and enjoyment of their properties, and associated injuries,
refer to their corporate owners, members, and managers.

Appendix K-5
priority dates. Finally, some Wood River Landowners
also hold water rights that were issued by OWRD
after 1909, including groundwater rights.
Sprague River Landowners
6. Plaintiffs Troy Brooks and Tracey Brook,
husband and wife; Barbara A. Duarte and Eric Lee
Duarte, as trustees of the Duarte Family Trust, UTD
January 17, 2002; Kevin Newman and Jennifer
Newman, husband and wife; Duane Martin Ranches,
L.P., a California limited partnership; Geoffrey T.
Miller and Catherin A. Miller, as Co-Trustees of The
Geoff and Catherine Miller Family Trust, UTD
February 6, 2017; Casey Lee Miller, as Trustee of The
Casey Miller Trust, UTD January 9, 2017; Wilks
Ranch Oregon, Ltd., a Texas limited partnership;
Margaret Jacobs; Darrell W. Jacobs; Franklin J.
Melsness and Janet G. Melsness; Barnes Lake
County, LLC, an Oregon limited liability company;
David Cowan and Theresa Cowan, husband and wife;
Vincent Hill; and Chet Vogt, as trustee for C & A Vogt
Community Property Trust (collectively, Sprague
River Landowners) are the owners of thousands of
acres of real property in the Sprague River Valley, as
well as along tributaries of the lower Williamson
River, all in Klamath County, Oregon. They2 use and
enjoy their real properties for multiple purposes
including, but not limited to: cattle ranching, growing
pasture
grasses,
recreation,
observing
and
experiencing wildlife, boating, fishing, and hunting.
Sprague River Landowners’ ability to use and enjoy
2 For
corporate entities, references to Sprague River
Landowners’ use and enjoyment of their properties, and
associated injuries, refer to their corporate owners, members,
and managers.

Appendix K-6
their properties is dependent on having access to
water for irrigation.
7. Sprague River Landowners’ properties have
appurtenant water rights that allow for the diversion
of water from the Sprague River and/or its tributaries,
as well as from the Lower Williamson River and its
tributaries, including Larkin Creek and Spring Creek,
for the purposes of irrigation and stock watering.
Sprague River Landowners use the water to irrigate
their pastures for growing grass to feed cattle. Wildlife
such as waterfowl, migratory birds, amphibians and
deer depend on Sprague River Landowners’ irrigated
pastures for habitat, refuge and feed. Sprague River
Landowners enjoy observing and experiencing wildlife
on their private property.
8. Some Sprague River Landowners’ water
rights have been provisionally recognized in the
Klamath Basin Adjudication as having a priority date
of 1864, originating under the Klamath Treaty. 16
Stat. 707. Some of Sprague River Landowners’
members are part of the Chiloquin Unit, Spring Creek
Unit and Yainax Unit of the Klamath Indian
Irrigation Project that was first planned, funded
and/or developed by the U.S. Indian Irrigation Service
commencing in the early 1900s. Other Sprague River
Landowners hold water rights that were adjudicated
in a prior state adjudication of the Sprague River, with
pre-1909 priority dates. Finally, some Sprague River
Landowners also hold water rights that were issued
by OWRD after 1909, including groundwater rights.
Defendants
9. Defendant Bernhardt, the Secretary of
Interior, is the official responsible for supervising

Appendix K-7
several federal agencies with an interest in the
Klamath Basin, including the BIA, the Bureau of
Reclamation (BOR), and the Fish and Wildlife Service
(FWS). Defendant Bernhardt, in addition, is the
primary official responsible for making policydecisions that balance the United States’ Indian trust
responsibilities with the United States’ other varied
interests and obligations owed to all people of the
Nation. See Letter from Griffin B. Bell, Attorney
General, to Cecil D. Andrus, Secretary of Interior
(May 31, 1979). See also Memorandum to the Attorney
General from John M. Harmon, Assistant Attorney
General, Office of Legal Counsel (August 11, 1977)
[hereinafter Harmon Memo]. Particularly pertinent
here, Defendant Bernhardt is responsible for the
United States’ policy decisions on Indian trust
matters which affect private landowners and
irrigators in the Upper Klamath Basin such as
plaintiffs, including with respect to lands that were
formerly part of the Klamath Indian Reservation and
which the Department of Interior supported
developing for irrigation and agriculture from the
early 1900s through the 1960s.
10. The Secretary has been personally involved in
significant recent decisions affecting plaintiffs and the
Upper Klamath Basin, decisions which are part of the
subject matter of this case, including the Upper
Klamath Basin Comprehensive Agreement (UKBCA)
and the Klamath Basin Restoration Agreement
(KBRA). See 82 Fed. Reg. 61582 (December 28, 2017).
Secretary Sally Jewel personally visited the Upper
Klamath Basin to participate in the signing ceremony
for the UKBCA with plaintiffs and the other
signatories.
See
https://www.doi.gov/news/press
releases/historic-upper-klamath-basin-agreement-

Appendix K-8
signed-alongbanks-of-spring-creek.
The
UKBCA
specifically referenced, and contemplated defendants
utilizing, the Protocol Agreement to issue calls for
enforcement of United States-held water rights
against plaintiffs. Secretary Bernhardt is sued in his
official capacity only.
11. Defendant
Sweeney,
the
Assistant
Secretary—Indian Affairs is, pursuant to 25 U.S.C.
§ 2, responsible for management of all Indian affairs
and of all matters arising out of Indian relations,
under the direction of Secretary Bernhardt. Assistant
Secretary Sweeney is sued in her official capacity only.
12. Defendant LaCounte, the Director of the BIA,
is the official in charge of the BIA and supervising the
activities and decisions of the BIA’s Regional Offices,
including the Northwest Region and its regional
director. Director LaCounte is sued in his official
capacity only.
13. Defendant Mercier is the Regional Director
for the Northwest Regional Office of the BIA. His
predecessor, Stanley Speaks, signed the Protocol
Agreement on May 30, 2013. Regional Director
Mercier is sued in his official capacity only.
BACKGROUND ALLEGATIONS
14. Plaintiffs’ ranches are located throughout
what is known as the Upper Klamath Basin in
Klamath County, Oregon. Plaintiffs’ ranches drain
the Wood River, the Sprague River, the Williamson
River, and their tributaries, into Upper Klamath
Lake, which, in turn, empties into the mainstem
Klamath River. The Upper Klamath Basin contains
approximately 180,000 acres of irrigated pasture, the
development of much of which was supported by the

Appendix K-9
U.S. Indian Irrigation Service in the early 1900s, but
which has been actively declining since 2013 because
of decisions by defendants that have drastically
curtailed irrigation. Plaintiffs’ ranches are home to an
array of wildlife that depend on irrigation for
providing habitat that is important for carrying out
behavioral functions, including feeding and
sheltering. Numerous plant communities located on
plaintiffs’ ranches also rely on irrigation.
15. On September 29, 1975, the United States
filed a complaint in Oregon Federal District Court
against private landowners in the Upper Williamson
River basin in Klamath County, Oregon to “determine
the extent of the rights appurtenant to lands presently
owned by the defendants and the extent of the rights
of plaintiff to utilize the waters.” United States v.
Adair, Case No. 75-914 (D. Or.) (plaintiff’s complaint);
see also id., 478 F. Supp. 336 (D. Or. 1979) (Adair I).
The district court held that, under the Klamath
Treaty, the Tribes had an implied right to “all of the
water rights necessary to protect their hunting and
fishing rights[,]” with a “time immemorial” priority
date. Adair I, 478 F. Supp. at 345. The Ninth Circuit
Court of Appeals affirmed this ruling with the
clarification that the water right consisted of “the
amount of water necessary to support its hunting and
fishing rights as currently exercised to maintain the
livelihood of Tribe members, not as these rights once
were exercised by the Tribe in 1864.” United States v.
Adair, 723 F.2d 1394, 1414-15 (1983) (Adair II). The
Ninth Circuit left to the State of Oregon the task of
quantifying the water right in a state adjudication.
16. The district court also recognized that, in
addition to supporting the Klamath Tribes’ hunting

Appendix K-10
and fishing rights, the Treaty’s other primary purpose
was “to encourage agriculture,” and that non-Indian
landowners were “entitled to an 1864 priority date for
water rights appurtenant to their land which formerly
belonged to the Klamath Indians.” United States v.
Adair, Case No. 75-914 (D. Or.) (final judgment).
Many of these lands, “approximately 25% of the
original Klamath Reservation,” were developed and
passed on to non-Indians under the General
Allotment Act of 1887. Adair II, 723 F.2d at 1398.
Several plaintiffs are owners of those governmentallotted lands, as described in paragraphs 5 and 8,
above.
17. The Department of Interior was responsible
for transferring those allotted lands to the
predecessor-in-interest of many of the plaintiffs. In
1958, the Solicitor for the United States Department
of Interior released a memorandum indicating that
the Department of Interior would “support the rights
of Indian landowners and third party purchasers of
Klamath [Reservation] lands as having” water rights
under the Klamath Treaty of 1864. The Department
of Interior provided this support during the
termination period of the Klamath Reservation,
according to the Solicitor, “in order to give potential
non-Indian purchasers of land some assurance of
rights to the use of water on the land they purchase.”
The Department of Interior’s position coincided with a
long history of the federal government’s enthusiastic
support for the development of all the available water
from the streams within the former Reservation
(“former Reservation”) for irrigation and agriculture.
At the Secretary’s direction, in the early 1900s the
U.S. Indian Irrigation Service filed notices and
applications with the state engineer to develop all the

Appendix K-11
available water from the Wood River, Sprague River,
and Williamson River for irrigation and agriculture.
See Adair I, 478 F Supp at 339-340 (referencing the
Williamson River application).
18. Despite those actions by the Department of
Interior to support irrigation development and
agriculture on many of the lands now owned by
plaintiffs, in 1997, the United States filed instream
water right claims, as trustee for the Klamath Tribes,
for practically all the available water in the Wood
River and tributaries, Sprague River and tributaries,
and the Williamson River and tributaries in Oregon’s
general stream adjudication for the Klamath Basin
(Klamath Basin Adjudication or KBA), for the purpose
of supporting the Klamath Tribes’ fishing and hunting
rights, relying on Adair II.
19. Following
a
lengthy
administrative
proceeding and hearings, the State of Oregon, by and
through the Oregon Water Resources Department
(OWRD), issued its findings of fact and order of
determination (FFOD) for the KBA on March 7, 2013.
The FFOD provisionally determined more than 700
water right claims filed in the KBA, subject to parties’
rights to file exceptions to OWRD’s findings and
determinations in state circuit court pursuant to
Oregon Revised Statute (ORS) 539.150. Under ORS
539.130(4), the determined water rights claims went
into “full force and effect,” pending the state circuit
court’s resolution of parties’ exceptions.
20. In the FFOD, OWRD provisionally awarded
to the United States, as trustee for the Klamath
Tribes, substantial instream water right claims for
the Wood River and two of its tributaries, Fort Creek
and Crooked Creek, the Sprague River and several of

Appendix K-12
its tributaries, including Five Mile Creek, and the
lower Williamson River and several of its tributaries,
including Larkin Creek and Spring Creek. The
instream water rights were quantified at such high
levels that, if enforced at their full levels, they leave
little water, and in many cases no water, available for
irrigation uses throughout the entire Upper Klamath
Basin. These water cut-offs have directly injured
plaintiffs’ private ranches, many of which were
developed for irrigation with the active support of the
Department of Interior, led by the Secretary. The
Wood River Landowners and Sprague River
Landowners
filed
exceptions
to
OWRD’s
determinations, in state circuit court, and those
exceptions remain pending. The exceptions are not
likely to be resolved for several more years.
21. In the FFOD, OWRD also provisionally
awarded several Wood River Landowners and
Sprague River Landowners irrigation water rights
with an 1864 priority date, pursuant to the Klamath
Treaty. Despite identifying those very same lands for
irrigation development in the early 1900s, by and
through the U.S. Indian Irrigation Service, the United
States has filed exceptions to OWRD’s determinations
of several of those claims, seeking to have them
severely limited or denied, and those exceptions
remain pending. The exceptions are not likely to be
resolved for several more years.
22. In the FFOD, OWRD specifically determined
that the tribal instream water rights would not be
held by the Klamath Tribes and would, instead, be
held by the United States, as trustee, based on the
U.S. Supreme Court’s holding in Colorado River Water
Conservation Distr. v. United States, 424 U.S. 800, 810

Appendix K-13
(1976). In response, defendants, by and through the
BIA’s Regional Director for the Northwest Region,
entered into the Protocol Agreement on May 30, 2013.
The Protocol Agreement delegates to the Klamath
Tribes the United States’ authority and discretion to
make “calls” for the State of Oregon, by and through
OWRD, to prohibit junior water uses when the
streamflows are not being met, under Oregon’s prior
appropriation doctrine system of water right
regulation.
23. The Protocol Agreement authorizes the
Klamath Tribes to contact OWRD to formally issue
calls for enforcement of the instream water rights,
after providing notice to the BIA. In the absence of
such calls, OWRD would not prohibit junior water
users from exercising their water rights. The Protocol
Agreement provides that, within two business days of
receiving notice for the Tribes, the BIA will provide an
email response stating either: “(i) agreement with
making the proposed call, (ii) changes to the scope of
the proposed call, (iii) disagreement with making the
proposed call and the reasons for that disagreement
or, (iv) that BIA needs an additional business day to
complete deliberations on the call notice.”
24. In the event BIA disagrees with a call, or the
scope of the call, and the dispute cannot be resolved
within two business days, the Protocol Agreement
empowers the Klamath Tribes to nonetheless proceed
to issue the call, notwithstanding BIA’s objections. In
such event, the Protocol agreement specifically
provides that the BIA “will not object to the call[,]”
effectively waiving any final review authority of the
agency to prohibit or modify the call.

Appendix K-14
25. Pursuant to the Protocol Agreement, in June,
2013, the Klamath Tribes, by and through the power
and authority delegated by defendants, issued calls to
OWRD which resulted in OWRD issuing final orders
directing hundreds of landowners throughout the
Upper Klamath Basin, including plaintiffs, to cease
all irrigation.
26. Following the 2013 shut-off, the United States
and the State of Oregon sought to find a solution for
this basin-wide crisis by bringing landowners and the
Klamath Tribes together to reach a comprehensive
water right settlement. This effort resulted in
execution
of
the
Upper
Klamath
Basin
Comprehensive Agreement (UKBCA) on April 18,
2014, between the State of Oregon, Klamath Tribes,
and landowners in the Upper Klamath Basin,
including most of the plaintiffs to this action. Former
Secretary of Interior, Sally Jewell, personally
participated in the signing ceremony for the UKBCA
on the banks of the Lower Williamson River.
27. Defendants, or their predecessors, and/or
their direct subordinates, were directly involved in the
negotiation, and subsequent implementation, of the
UKBCA, as well as related and connected agreements,
including the Klamath Basin Restoration Agreement
(KBRA) and the Klamath Hydroelectric Settlement
Agreement (KHSA). Section 13.3 of the UKBCA
specifically provided: “[n]othing in this Agreement is
intended to affect the agreement between the
Klamath Tribes and the BIA when placing calls
pursuant to the May 24, 2013 Protocol Agreement
between the Klamath Tribes and the BIA, which is on
file with OWRD, amended as needed from time to
time.”

Appendix K-15
28. The UKBCA included a Water Use Program
(WUP) that significantly reduced the magnitude of the
instream flows awarded to the United States in the
KBA to flows called “Specified Instream Flows” (SIF).
The SIFs consisted of lower streamflow levels that
were designed to support fish and wildlife resources
important to the Klamath Tribes while also providing
irrigation opportunities for plaintiffs and other
irrigators and, consequently, a sustainable basis for
the continuation of irrigated agriculture in the Upper
Klamath Basin.
29. Pursuant to the Protocol Agreement, in 2014,
2015, and 2016, the Klamath Tribes, by and through
the power and authority delegated by defendants,
issued calls to OWRD for enforcement of the SIFs
designated under the UKBCA. Although these
modified calls mitigated some of the environmental
and economic impacts in the Upper Klamath Basin by
allowing more land to be irrigated, including lands
owned by plaintiffs, many landowners, including some
plaintiffs, still experienced significant curtailment to
their water use. Despite these impacts, plaintiffs
acknowledge that the calls for enforcement to the SIFs
were issued under the agreement reached in the
UKBCA.
30. In 2017, citing a lack of progress in
implementing the UKBCA (due to lack of federal
funding), the Klamath Tribes, by and through the
power and authority delegated by defendants, issued
calls to OWRD for enforcement of the full instream
flow level water rights held by the United States,
instead of at the SIF levels. OWRD’s enforcement of
these calls resulted in widespread and severe
curtailment of irrigation, and in many cases complete

Appendix K-16
shut-offs, against plaintiffs and similarly-situated
landowners in the Upper Klamath Basin.
31. On December 28, 2017, the former Secretary
of Interior, Ryan Zinke, issued a “Negative Notice” in
the Federal Register terminating the UKBCA. 82 Fed.
Reg. 61582 (December 28, 2017). The following spring,
in 2018, the Klamath Tribes, by and through the
power and authority delegated by defendants, and in
coordination with defendants, issued calls to OWRD
for enforcement of the full instream flow level water
rights held by the United States. OWRD’s
enforcement of these calls resulted in widespread and
severe curtailment of irrigation, and in many cases
complete shut-offs, against plaintiffs and similarlysituated landowners in the Upper Klamath Basin.
32. In April 2019, the Klamath Tribes, by and
through the power and authority delegated by
defendants, issued blanket calls to OWRD for
enforcement of the full instream flow level water
rights held by the United States. OWRD’s
enforcement of these calls will imminently result in
the severe curtailment of irrigation, and in many
cases complete shut-offs, against plaintiffs and
similarly-situated landowners in the Upper Klamath
Basin.
33. In the course of the Klamath Tribes’ calls for
water right enforcement in each of 2013 through 2019,
defendants, or defendants’ direct subordinates, have
been consulted on the Klamath Tribes’ desire to make
the calls. Defendants, or defendants’ direct
subordinates, have been involved in decision-making
processes related to the Klamath Tribes’ calls.

Appendix K-17
34. For instance, in 2015, John Bezdek, former
Counsel to the Deputy Secretary, was consulted on,
and involved with, decision-making related to the
Klamath Tribes’ proposed call. Mr. Bezdek, who had
been appointed by former Secretary Sally Jewell as
the ‘point person’ from the Secretary’s office for
Klamath water-related issues, including the
negotiation and implementation of the UKBCA, had
direct oversight and decision-making responsibility
for the calls issued from 2014-2016, for the Secretary.
In place of the role that Mr. Bezdek formerly served,
Defendant Bernhardt has appointed Alan Mikkelson,
as Senior Advisor to the Secretary on Water and
Western Resource Issues, to serve as the point person
for Klamath water-related issues, including
termination of the UKBCA and ongoing efforts to
reach a new basin-wide settlement agreement,.
Mr. Mikkelson reports directly to defendant
Bernhardt on Klamath water-related issues.
35. Mr. Mikkelson has made, and continues to
make, regular trips to the Klamath Basin on the
Secretary’s behalf to facilitate the development of
long-term permanent solutions to the basin’s natural
resource crises. On behalf of the Secretary,
Mr. Mikkelson provides direction to various federal
agencies with interests in the Klamath Basin,
including the BIA, the BOR and FWS. Mr. Mikkelson
has had direct oversight responsibility for the calls
issued from 2017-2019, which were issued pursuant to
the Protocol Agreement.
36. As a direct result of the calls issued from
2013-2019, plaintiffs have suffered, and will
continued to suffer, substantial injuries to their
aesthetic, environmental, recreational and other

Appendix K-18
interests. These injuries include: (1) the reduction and
loss of wildlife on plaintiffs’ ranches as a result of
irrigation curtailments; (2) the infestation of weeds
and other undesirable plants as a result of irrigation
curtailments; (3) and the wholesale loss of grass plant
communities on portions of some of plaintiffs’ ranches
as a result of irrigation curtailments. These
environmental impacts are among the kinds that are
required to be analyzed and considered under NEPA
before a federal agency decides to undertake a major
federal action.
37. In addition, plaintiffs and other similarlysituated landowners are suffering social and economic
injuries by virtue of lost revenues and substantially
reduced property values which, in turn, have had
substantial and devastating negative socioeconomic
impacts on the entire Upper Klamath Basin
agricultural community. These environmental and
social justice impacts are also required to be analyzed
and considered under NEPA.
38. Defendants’ acts and omissions in delegating
authority to the Klamath Tribes to make these calls,
and the resulting Tribe-initiated calls on water rights
held by the United States and made without
compliance with NEPA, are causing plaintiffs real and
substantial injuries. The relief sought in this lawsuit
will redress injuries to plaintiffs’ interests.
DECLARATORY AND
INJUNCTIVE RELIEF ALLEGATIONS
39. An actual and substantial controversy exists
between plaintiffs and defendants. Plaintiffs contend
that the Protocol Agreement constitutes an unlawful
delegation of power, and that the Agreement, as well

Appendix K-19
as calls made pursuant to it, result in significant
impacts to the human environment that require an
environmental impact statement under NEPA.
Defendants, however, contend that the Protocol
Agreement is lawful and that NEPA does not apply to
it nor to calls made pursuant to it. Declaratory relief
is therefore appropriate to resolve this dispute.
40. If an injunction does not issue precluding
defendants from continuing to operate under the
Protocol Agreement, and to allow calls to be made
thereunder without compliance with NEPA, plaintiffs
will be irreparably harmed. The water shut-offs that
have occurred pursuant to the Protocol Agreement
have significantly injured plaintiffs’ aesthetic,
recreational, and agricultural interests. The cut-offs
have significantly affected the human environment,
by among other things reducing water fowl habitat
and converting pasture and other usable rangeland
into dusty and weed-infested fields. Once damaged,
these habitats and plant communities take years to
try to re-establish and recover. These environmental
effects of the shut-offs—all directly attributable to the
Protocol Agreement and calls made thereunder—have
injured plaintiffs’ aesthetic and other interests in the
native flora and fauna of their lands and the Upper
Klamath Basin as a whole. Absent an injunction,
defendants will continue to implement the Protocol
Agreement and allow calls to be made thereunder,
because the political and environmental factors that
have led to the creation of the Protocol Agreement and
its repeated implementation will persist into the
foreseeable future. Plaintiffs have no plain, speedy,
and adequate remedy at law for their economic and
aesthetic injuries. Money damages in this case are not
available.

Appendix K-20
FIRST CLAIM FOR RELIEF
(Against all defendants; unlawful delegation of
federal agency authority; ultra vires final
agency action under 5 U.S.C. § 706(2)(A)-(C))
41. Plaintiffs reallege the allegations in
paragraphs 1 through 40 as if fully set forth herein.
42. 43 U.S.C. § 1451 authorizes the “executive
department to be known as the Department of the
Interior, and a Secretary of Interior, who shall be the
head thereof.” 43 U.S.C. § 1541. The Secretary of
Interior is “charged with the supervision of the public
business relating to[,]” inter alia, “Indians.” 43 U.S.C.
§ 1457.
43. 25 U.S.C. § 1a authorizes the Secretary of
Interior to “delegate, from time to time … his powers
and duties under said laws to the Commissioner of
Indian Affairs,” aka the Assistant Secretary—Indian
Affairs. 25 U.S.C. § 1a. The section authorizes the
Commissioner to redelegate, but only to assistant
commissioners or other officers within BIA. Id. No
constitutional or statutory provision authorizes the
delegation of power to make final decisions concerning
Indian water rights held in trust by the United States
to an Indian tribe.
44. Under the unlawful delegation doctrine, a
federal agency acts ultra vires whenever it attempts,
without constitutional or statutory authorization, to
sub-delegate decision-making authority. Such subdelegation is presumed to be unlawful when made to
non-federal entities or persons. U.S. Telecom Ass’n v.
FCC, 359 F.3d 554, 565-66 (D.C. Cir. 2004).
45. The Protocol Agreement is a final agency
action subject to the APA. The Protocol Agreement

Appendix K-21
delegates to the Klamath Tribes the authority to issue
calls for the enforcement of federal reserved water
rights that are held by the United States. See
Colorado River Water Conservation Dist. v. United
States, 424 U.S. 800, 810 (1976). With respect to such
federal reserved water rights held by the United
States, the Klamath Tribes do not possess any
independent or residual authority.
46. In approving, authorizing the execution of,
and executing the Protocol Agreement—and in
carrying out federal actions pursuant to the
Agreement annually—defendants have unlawfully
delegated to the Klamath Tribes the authority to
make calls for enforcement of federal reserved water
rights held by the United States. In the Protocol
Agreement, defendants unlawfully waived the
Secretary’s power and authority to object to, suspend,
modify or otherwise change a call proposed by the
Klamath Tribes, unless agreed-to by the Klamath
Tribes. See generally Harmon Memo at 9 (“[T]he
Secretary may conclude that, even after taking th[e]
presumption [of construing statutes to favor Indian
interests] into account, he may legally follow a course
of action not favored by the Indians.”). In doing so,
defendants acted in manner arbitrary, capricious,
contrary to law, contrary to constitutional rights,
power, privilege or immunity, and in excess of
jurisdiction, authority, or limitations or short of
statutory right. 5 U.S.C. § 706(2)(A)-(C).

Appendix K-22
SECOND CLAIM FOR RELIEF
(Against all defendants; violation of
NEPA in concurring with, or acceding to,
calls for enforcement of United States-held
water rights; unlawful agency action
under 5 U.S.C. § 706(2)(A)-(D))
47. Plaintiffs reallege the allegations in
paragraphs 1 through 46 as if fully set forth herein.
48. NEPA is our “basic national charter for
protection of the environment.” 40 C.F.R. § 1500.1(a).
It serves two purposes: (1) “it ensures that the agency,
in reaching its decision, will have available, and will
carefully consider, detailed information concerning
significant environmental impacts,” and (2) it
“guarantees that the relevant information will be
made available to the larger audience that may also
play a role in both the decisionmaking process and the
implementation of that decision.” Robertson v.
Methow Valley Citizens Council, 490 U.S. 332, 349
(1989).
49. NEPA requires agencies to prepare an
environmental impact statement (EIS) for “major
Federal actions significantly affecting the quality of
the human environment.” 42 U.S.C. § 4332(2)(C). The
EIS must “provide full and fair discussion of
significant environmental impacts.” 40 C.F.R.
§ 1502.1. Agencies must consider every significant
aspect of the environmental impact of a proposed
action. This includes studying the direct, indirect, and
cumulative impacts of the action. See 40 C.F.R.
§§ 1508.7, 1508.8.
50. Analysis prepared in order to satisfy NEPA
must include consideration of a reasonable range of

Appendix K-23
alternatives to a proposed action. 42 U.S.C.
§ 4332(2)(C)(iii); see also 40 C.F.R. § 1502.14
(alternatives including the proposed action).
51. Pursuant
to
the
unlawful
Protocol
Agreement, in each of 2013, 2017, 2018, and 2019
defendants have allowed for the issuance of calls for
enforcement of United States-held water rights to the
substantial injury to plaintiffs and the environment.
In so allowing, defendants have exercised
considerable discretion without observance or
compliance with NEPA. In waiving their right to
object to, or modify, calls proposed by the Klamath
Tribes in the Protocol Agreement, defendants
unlawfully decided that they would not evaluate the
potential environmental impacts of the calls nor
consider alternatives to the Klamath Tribes’ preferred
course of action.
52. Each of the calls has constituted “major
federal actions” under NEPA. Additionally, and/or
alternatively, defendants’ program and/or protocol for
making those calls is a major federal action under
NEPA.
53. In allowing for the issuance of the calls,
especially in each of 2013 and 2017 through 2019,
defendants violated NEPA, including but not limited
to the requirement to prepare an EIS under 42 U.S.C.
§ 4332(2)(C). Defendants acted in manner arbitrary,
capricious, contrary to law, in excess of jurisdiction
and authority, and without observance of procedures
requirement by law, in violation of 5 U.S.C.
§ 706(2)(A)-(D).

Appendix K-24
PRAYER FOR RELIEF
WHEREFORE, plaintiffs pray for a judgment
granting the following relief;
1. A declaration that the Protocol Agreement is
a final agency action constituting an ultra vires and
therefore unlawful sub-delegation of agency
authority, in violation of 5 U.S.C. § 706(2)(A)-(C).
2. A declaration that the calls for enforcement of
the United States-held water rights in each of 2013,
2017, 2018 and 2019 violated NEPA and therefore
constitute final agency actions that were arbitrary,
capricious, contrary to law, in excess of jurisdiction
and authority, and without observance of procedures
required by law, in violation of 5 U.S.C. § 706(2)(A)(D).
3. An order reversing, setting aside, vacating
and/or remanding the Protocol Agreement and each of
the calls made in 2013, 2017, 2018, and 2019.
4. An injunction prohibiting defendants from
issuing any more calls until such time as defendants
have fully complied with the law, including their
obligation to make a final, independent decision on the
propriety of a call, having taken into account the
general public interest and welfare, as well as NEPA;
5. An award of plaintiffs’ reasonable costs,
litigation expenses, and attorney’s fees associated
with this litigation pursuant to the Equal Access to
Justice Act, 28 U.S.C. § 2412 et seq., and any other
applicable authorities;
6. Granting to plaintiffs such other relief as may
be just and equitable.

Appendix K-25
Respectfully submitted this 7th day of August,
2019.
By: /s/ David J. Deerson
DAVID J. DEERSON
(Pro Hac Vice)
Cal. Bar No. 322947
PACIFIC LEGAL FOUNDATION
930 G Street
Sacramento, CA 95814
Phone: (916) 419-7111
Email: ddeerson@pacificlegal.org
Of Attorneys for Plaintiffs

